<html>
<title> - REVIEWING THE PRESIDENT'S FISCAL YEAR 2015 BUDGET PROPOSAL FOR THE DEPARTMENT OF EDUCATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                    REVIEWING THE PRESIDENT'S FISCAL
                     YEAR 2015 BUDGET PROPOSAL FOR
                      THE DEPARTMENT OF EDUCATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                         
                           AND THE WORKFORCE
                           
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 29, 2014

                               __________

                           Serial No. 113-57

                               __________


Printed for the use of the Committee on Education and the Workforce


           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
          committee.action?chamber=house&committee=education
      
                                   or
                                   
            Committee address: http://edworkforce.house.gov
                
                                ______
                         
                         
                  U.S. GOVERNMENT PUBLISHING OFFICE

87-629 PDF                 WASHINGTON : 2015
_______________________________________________________________________________________

    For sale by the Superintendent of Documents, U.S. Government Publishing Office
Internet: http://bookstore.gpo.gov Phone toll free (866)512-1800; DC area (202)512-1800
         Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001  




               COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert C. ``Bobby'' Scott, 
Joe Wilson, South Carolina               Virginia
Virginia Foxx, North Carolina        Ruben Hinojosa, Texas
Tom Price, Georgia                   Carolyn McCarthy, New York
Kenny Marchant, Texas                John F. Tierney, Massachusetts
Duncan Hunter, California            Rush Holt, New Jersey
David P. Roe, Tennessee              Susan A. Davis, California
Glenn Thompson, Pennsylvania         Raul M. Grijalva, Arizona
Tim Walberg, Michigan                Timothy H. Bishop, New York
Matt Salmon, Arizona                 David Loebsack, Iowa
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Scott DesJarlais, Tennessee          Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Larry Bucshon, Indiana               Gregorio Kilili Camacho Sablan,
Trey Gowdy, South Carolina             Northern Mariana Islands
Lou Barletta, Pennsylvania           Frederica S. Wilson, Florida
Joseph J. Heck, Nevada               Suzanne Bonamici, Oregon
Susan W. Brooks, Indiana             Mark Pocan, Wisconsin
Richard Hudson, North Carolina       Mark Takano, California
Luke Messer, Indiana
Bradley Byrne, Alabama

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 29, 2014...................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, Senior Democratic Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Duncan, Hon. Arne, Secretary of Education, Washington, DC....     7
        Prepared statement of....................................    12

Additional Submissions:
    Scott, Hon. DesJarlais, a Representative in Congress from the 
      State of Tennessee:........................................
        Letter, dated April 8, 2014 from Kimberly Jones, 
          President, Committee for Education Funding.............    69
    Questions submitted for the record by:.......................
        Barletta, Hon. Lou, a Representative in Congress from the 
          State of Pennsylvania..................................    78
        Brooks, Hon. Susan W., a Representative in Congress from 
          the State of Indiana...................................    79
        Bucshon, Hon. Larry, a Representative in Congress from 
          the State of Indiana...................................    78
        Foxx, Hon. Virginia, a Representative in Congress from 
          the State of North Carolina............................    75
        Guthrie, Hon. Brett, a Representative in Congress from 
          the State of Kentucky..................................    77
        Heck, Hon. Joseph J., a Representative in Congress from 
          the State of Nevada....................................    78
        Hinojosa, Hon. Ruben, a Representative in Congress from 
          the State of Texas.....................................    80
        Holt, Hon. Rush, a Representative in Congress from the 
          State of New Jersey....................................    80
        Chairman Kline...........................................    73
        Loebsack, Hon. David, a Representative in Congress from 
          the State of Iowa......................................    81
        Messer, Hon. Luke, a Representative in Congress from the 
          State of Indiana.......................................    79
        Roe, Hon. David P., a Representative in Congress from the 
          State of Tennessee.....................................    76
        Rokita, Hon. Todd, a Representative in Congress from the 
          State of Indiana.......................................    77
        Salmon, Hon. Matt, a Representative in Congress from the 
          State of Arizona.......................................    77
        Thompson, Hon. Glenn, a Representative in Congress from 
          the State of Pennsylvania..............................    76
    Secretary Duncan's, response to questions submitted for the 
      record.....................................................    83


 
                 REVIEWING THE PRESIDENT'S FISCAL YEAR
                      2015 BUDGET PROPOSAL FOR THE
                        DEPARTMENT OF EDUCATION

                              ----------                              


                        Tuesday, April 29, 2014

                       House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 10:01 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, Foxx, Roe, Thompson, 
Walberg, Salmon, Guthrie, DesJarlais, Rokita, Bucshon, Gowdy, 
Heck, Messer, Byrne, Miller, Scott, Hinojosa, Tierney, Holt, 
Davis, Grijalva, Bishop, Loebsack, Courtney, Fudge, Polis, 
Sablan, Wilson, Bonamici, Pocan, and Takano.
    Staff present: Janelle Belland, Coalitions and Members 
Services Coordinator; Lindsay Fryer, Professional Staff Member; 
Amy Raaf Jones, Director of Education and Human Resources 
Policy; Nancy Locke, Chief Clerk; Brian Melnyk, Professional 
Staff Member; Daniel Murner, Press Assistant; Krisann Pearce, 
General Counsel; Jenny Prescott, Legislative Assistant; Mandy 
Schaumburg, Education Deputy Director and Senior Counsel; Emily 
Slack, Professional Staff Member; Alex Sollberger, 
Communications Director; Alissa Strawcutter, Deputy Clerk; Brad 
Thomas, Senior Education Policy Advisor; Tylease Alli, Minority 
Clerk/Intern and Fellow Coordinator; Jeremy Ayers, Minority 
Education Policy Advisor; Kelly Broughan, Minority Education 
Policy Associate; Jody Calemine, Minority Staff Director; 
Jacque Chevalier, Minority Education Policy Advisor; Eamonn 
Collins, Minority Fellow, Education; Jamie Fasteau, Minority 
Director of Education Policy; Scott Groginsky, Minority 
Education Policy Advisor; Julia Krahe, Minority Communications 
Director; Brian Levin, Minority Press Secretary; Megan 
O'Reilly, Minority General Counsel; Rich Williams, Minority 
Education Policy Advisor; and Michael Zola, Minority Deputy 
Staff Director.
    Chairman Kline. A quorum being present, committee will come 
to order. Well, good morning. Welcome to our guests. Thank you 
to Secretary Duncan for joining us. Mr. Secretary, we know your 
time is valuable and we appreciate the opportunity to speak 
with you today.
    Each year, the Secretary comes before this committee to 
discuss the administration's policies and priorities for the 
Department of Education. And each year, he is faced with the 
undesirable task of defending a budget full of new, unproven 
programs, burdensome federal mandates and competitive grants 
that pressure schools to adopt the President's preferred 
policies.
    For fiscal year 2015, the budget request for the department 
clocks in at an incredible $82.3 billion. This includes nearly 
$70 billion in discretionary spending and $13 billion in 
mandatory funding for pet projects such as the President's 
Preschool for All proposal and new teacher preparation 
initiatives, both of which, I might add, are redundant of 
dozens of existing federal programs.
    Families, school leaders, and taxpayers deserve a better 
way forward. Rather than continue to throw good money after bad 
and pound new program on top of old, we need an administration 
to work with Congress to advance lasting solutions for the 
challenges facing schools nationwide.
    But instead of supporting our efforts to strengthen K-12 
education, the administration has implemented a convoluted 
temporary waiver scheme which now has waivers to waivers that 
makes the Secretary of Education the sole arbiter of elementary 
and secondary education policy.
    Instead of helping us address problems in postsecondary 
education through the reauthorization of the Higher Education 
Act, the Obama administration continues to push for 
shortsighted mandates and federal price controls that will 
limit innovation and levy new regulatory burdens on colleges 
and universities.
    Instead of working with us to ensure the federal government 
fulfills its basic commitment to students with disabilities by 
prioritizing funding for the Individuals with Disabilities 
Education Act, the Obama administration has opted to ramp up 
spending on untested and often duplicative programs. Worse, the 
President's budget threatens to further reduce IDEA funding for 
most districts by shifting the funds into yet another 
competitive program.
    Each of these initiatives is undermining progress in the 
nation's schools and preventing the students from accessing the 
quality education opportunities they need for success. The 
House Education and the Workforce Committee has advanced a 
number of proposals that will reshape our education system, 
provide teachers, school administrators, and postsecondary 
education leaders with the flexible framework necessary to more 
effectively serve students.
    For example, last summer, the House approved the Student 
Success Act, legislation to restore state and local control in 
K-12 education, empower parents, and reduce federal burdens in 
the classroom. The Student Success Act is the first bill to 
reauthorize the Elementary and Secondary Education Act that has 
been considered on the floor in either the House or Senate in 
more than a decade.
    Mr. Secretary, you have repeatedly noted the importance of 
reauthorizing this law. Clearly, many differences remain. 
Though prospects may seem unlikely, I believe we all share a 
sincere desire to find enough common ground to craft a solution 
that puts student first. But we need support from the 
administration, not just more waivers.
    In addition to our progress in reforming K-12 education, 
the committee has spent more than a year preparing to 
reauthorize the Higher Education Act. We have held more than a 
dozen hearings to examine a myriad of issues facing 
postsecondary institutions and students and moved legislation 
to enhance transparency and eliminate federal regulations that 
will disproportionately harm low-income students and threaten 
the strength of our higher education system.
    As we continue working toward a rewrite of the Higher 
Education Act, I urge the Secretary to abandon the intrusive 
policies and punitive regulatory proposal outlined in the 
President's budget and instead work with us to craft 
legislation that will help meet our shared goals of improving 
transparency, affordability, and access to postsecondary 
education.
    Before I yield to my distinguished colleague, Mr. Miller, 
for his opening remarks, I want to make one final request to 
Secretary Duncan. Mr. Secretary, after each hearing, the 
committee members on both sides of the aisle submit to your 
department questions for the record. As our time here in the 
hearing is limited, these supplemental questions help us 
continue our oversight of the department's programs and 
policies.
    However, I am troubled by the significant delay in response 
to these questions. Just a few days ago, Mr. Secretary, the 
committee finally received answers to the questions submitted 
to you at this hearing last year. I sincerely hope this will 
not be the case with the questions received following today's 
hearing.
    I will now yield to the senior Democrat, Mr. Miller, for 
his opening remarks.
    [The statement of Chairman Kline follows:]
    Chairman, Committee on Education and the Workforce
    Hearing on ``Reviewing the President's Fiscal Year 2015 Budget 
Proposal for the Department of Education''
    April 29, 2014
    Good morning. Welcome to our guests, and thank you to Secretary 
Duncan for joining us. We know your time is valuable, and we appreciate 
the opportunity to speak with you today.
    Each year, the secretary comes before this committee to discuss the 
administration's policies and priorities for the Department of 
Education. And each year, he is faced with the undesirable task of 
defending a bloated budget full of new, unproven programs, burdensome 
federal mandates, and competitive grants that pressure schools to adopt 
the president's preferred policies.
    For fiscal year 2015, the budget request for the department clocks 
in at an incredible $82.3 billion. This includes nearly $70 billion in 
discretionary spending and 13 billion in mandatory funding for pet 
projects, such as the president's Preschool for All proposal and new 
teacher preparation initiatives - both of which, I might add, are 
redundant to dozens of existing federal programs.
    We have discussed time and again the fact that more programs and 
higher spending have had little measurable impact on students' academic 
achievement. Though the administration has pumped billions of dollars 
into the nation's education system since 2009, student achievement 
remains largely unchanged.
    Families, school leaders, and taxpayers deserve a better way 
forward. Rather than continue to throw good money after bad and pile 
new program on top of old, we need an administration that will work 
with Congress to advance lasting solutions to the challenges facing 
schools nationwide.
    But instead of supporting our efforts to strengthen K-12 education, 
the Obama administration has implemented a convoluted, temporary waiver 
scheme that makes the secretary of education the sole arbiter of 
elementary and secondary education policy.
    Instead of helping us address problems in postsecondary education 
through the reauthorization of the Higher Education Act, the Obama 
administration continues to push for shortsighted mandates and federal 
price controls that will limit innovation and levy new regulatory 
burdens on colleges and universities.
    And instead of working with us to ensure the federal government 
fulfills its basic commitment to students with disabilities by 
prioritizing funding for the Individuals with Disabilities Education 
Act, the Obama administration has opted to ramp up spending on untested 
and often duplicative programs. Worse, the president's budget threatens 
to further reduce IDEA funding for most districts by shifting the funds 
into yet another competitive grant program.
    Each of these initiatives is undermining progress in the nation's 
schools and preventing students from accessing the quality education 
opportunities they need for success. The House Education and the 
Workforce Committee has advanced a number of proposals that will 
reshape our education system and provide teachers, school 
administrators, and postsecondary education leaders with the flexible 
framework necessary to more effectively serve students.
    For example, last summer the House approved the Student Success 
Act, legislation to restore state and local control in K-12 education, 
empower parents, and reduce federal burdens in the classroom. The 
Student Success Act is the first bill to reauthorize the Elementary and 
Secondary Education Act that has been considered in either the House or 
Senate in more than a decade.
    Mr. Secretary, you have repeatedly noted the importance of 
reauthorizing this law. Clearly, many differences remain. Though 
prospects may seem unlikely, I believe we all share a sincere desire to 
find enough common ground to craft a solution that puts students first. 
But we need support from the administration, not more waivers that 
serve as roadblocks to real reform.
    In addition to our progress in reforming K-12 education, the 
committee has spent more than a year preparing to reauthorize the 
Higher Education Act. We've held more than a dozen hearings to examine 
myriad issues facing postsecondary institutions and students, and moved 
legislation to enhance transparency and eliminate federal regulations 
that will disproportionately harm low-income students and threaten the 
strength of our higher education system.
    As we continue working toward a rewrite of the Higher Education 
Act, I urge the secretary to abandon the intrusive polices and punitive 
regulatory proposals outlined in the president's budget and instead 
work with us to craft legislation that will help meet our shared goals 
of improving transparency, affordability, and access to postsecondary 
education.
    Before I yield to my distinguished colleague, Mr. George Miller, 
for his opening remarks, I want to make one final request to Secretary 
Duncan. After each hearing, the committee members on both sides of the 
aisle submit to your department questions for the record. As our time 
here in the hearing is limited, these supplemental questions help us 
continue our oversight of the department's programs and policies.
    However, I am troubled by the significant delay in response to 
these questions. Just a few days ago, the committee finally received 
answers to the questions submitted to the secretary after this hearing 
almost one year ago. I sincerely hope this will not be the case with 
the questions you receive following today's hearing.
    I will now yield to the Senior Democrat, Mr. Miller, for his 
opening remarks.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for joining us here today to 
discuss President Obama's agenda for improving the lives and 
the education of our nation's students.
    This hearing comes at a time when our parties are putting 
forth two very different visions of our nation's education 
system.
    On the one hand, my Republican colleagues have passed a 
draconian budget that guts resources for students and schools, 
putting sequestration back in place and slashing education even 
further.
    On the other, President Obama has proposed greater 
investment in our nation's schools because he recognizes that 
education leads to better jobs and a more competitive 
workforce.
    Republicans want to be the party of ``NO:'' NO federal 
involvement; NO accountability; NO equity protections for 
disadvantaged students.
    President Obama has put forward a budget that supports 
college and career readiness for all students and encourages 
greater equity.
    These are more than just opposing theories or competitive 
ideologies; how these budget priorities end up playing out will 
have real consequences for our students, teachers, schools and 
for our economy.
    It is a shame that we find ourselves at such odds when we 
are talking about the very future of our nation.
    The recent past had shed some light on the possibilities 
for our future. Over the last 5 years, schools have undertaken 
a massive transformation on a scale that I have never seen 
before in my lifetime.
    Schools are raising expectations for students so that they 
graduate prepared for life's next steps, be they toward college 
or toward a career.
    Schools are ditching bubble tests in favor of new 
assessments that measure critical thinking and other skills 
necessary to have success in the 21st century.
    Schools are experimenting with new ways to measure and 
encourage achievement, including efforts to improve struggling 
schools.
    Communities are setting children up for life-long success 
by providing high-quality preschool programs for more kids than 
ever before.
    We need to support our nation's educators as they undertake 
these dramatic shifts in education in this country.
    We in the federal government should be helping students and 
schools make these leaps, not cutting them off at the knees. 
Instead of doubling down on austerity, we should pass a 
bipartisan law to fix No Child Left Behind, not jam partisan 
bills through the House that the President will never sign.
    We should continue to bolster early childhood education so 
that our youngest citizens stop falling through the cracks.
    We should strengthen the workforce by improving college 
access, increasing transparency to help students make smart 
choices, and increasing college competition, not gutting the 
Pell Grant, the backbone of student aid.
    It is time for Congress to get back into the business of 
partnering with states and districts in support of schools. 
It's a time to start saying ``Yes'' rather than always saying 
``No.''
    I am pleased to say that we have taken some small steps to 
do this. The recent passage of the bipartisan charter school 
bill and the education research bill are encouraging signs, as 
was the funding for preschool development grants that was 
included in the bipartisan omnibus bill.
    But they are just a down payment on the challenges that lie 
ahead of us in revising the primary laws that impact the 
nation's education system.
    Given the heavy-handed Ryan budget and the overall 
Congressional inaction on pressing education matters, I want to 
recognize and commend the actions your department has taken on 
the equity issues.
    I would like to commend you for your vigilance on ensuring 
the districts allocate resources more fairly and improve 
student access to effective teachers.
    I would like to praise the actions of the Office of Civil 
Rights to document and reduce inequitable discipline practices.
    I applaud the administration's attention to sexual abuse in 
schools at all levels.
    And I am heartened by your work in behalf of students with 
disabilities to ensure states continue to hold that population 
to high standards.
    And I appreciate your ongoing efforts to ensure that 
colleges adequately prepare students for gainful employment.
    And I appreciate the ongoing efforts to make high-quality 
early childhood education a reality for all children, not just 
a privilege for the few.
    I also urge you to maintain a laser-like focus on equity in 
the ESEA waiver renewal process. You have the authority in that 
process to bring the focus back to equity for disadvantaged 
students. And you must hold the line when states and districts 
seek to dilute or camouflage efforts to equitably serve all 
students.
    Thank you for being here today, Mr. Secretary.
    Thank you for all the work that you do day in and day out 
on behalf of our students and our schools and our communities.
    And I look forward to your testimony. I yield back my time.
    [The statement of Mr. Miller follows:]
    Thank you, Mr. Chairman.
    And thank you Secretary Duncan for joining us here today to discuss 
President Obama's agenda for improving the lives of our nation's 
students.
    This hearing comes at a time when our parties are putting forth two 
very different visions for our nation's education system.
    On the one hand, my Republican colleagues have passed a draconian 
budget that guts resources for students and schools, putting 
sequestration back in place and slashing education funding even 
further.
    On the other, President Obama has proposed greater investment in 
our nation's schools because he recognizes that education leads to 
better jobs and a more competitive workforce.
    Republicans want to be the party of ``NO:'' NO federal involvement; 
NO accountability; NO equity protections for disadvantaged students.
    President Obama has put forward a budget that supports college and 
career readiness for all students and encourages greater equity.
    These are more than just opposing theories, or competing 
ideologies: how these budget priorities end up playing out will have 
real consequences for our students, teachers, and schools.
    It is a shame that we find ourselves at such odds, when we're 
talking about the very future of our nation.
    The recent past has shed some light on the possibilities for our 
future. Over the last five years, schools have undertaken massive 
transformations, at a scale that I have never seen before in my 
lifetime.
    * Schools are raising expectations for students so that they 
graduate prepared for life's next steps, be they toward college or 
toward a career.
    * Schools are ditching bubble tests in favor of new assessments 
that measure critical thinking and other skills necessary to success in 
the 21st century.
    * Schools are experimenting with new ways to measure and encourage 
achievement, including efforts to improve struggling schools.
    * Communities are setting children up for life-long success by 
providing high-quality preschool programs for more kids than ever 
before.
    We need to support our nation's educators as they undertake these 
paradigmatic shifts.
    We in the federal government should be helping students and schools 
make these leaps, not cutting them off at the knees. Instead of 
doubling down on austerity:
    * We should pass a bipartisan law to fix No Child Left Behind, not 
jam partisan bills through the House that the president will never 
sign.
    * We should continue to bolster early childhood education so that 
our youngest citizens stop falling through the cracks.
    * We should strengthen the workforce by improving college access, 
increasing transparency to help students make smart choices, and 
increasing college completion, not gutting the Pell Grant, the backbone 
of student aid.
    It's time for Congress to get back into the business of partnering 
with states and districts to support our schools.
    It's a time to start saying ``Yes'' rather than always saying 
``No.'' I'm pleased to say that we have taken some small steps to do 
this.
    The recent passage of a bipartisan charter school bill and an 
education research bill are encouraging signs, as was the funding for 
preschool development grants that was included in the bipartisan 
omnibus bill.
    But they are just a down payment on the challenges that lie ahead 
of us in revising the primary laws that impact our nation's education 
system.
    Given the heavy-handed Ryan budget and overall congressional 
inaction on pressing education matters, I want to recognize and commend 
the actions your department has taken on equity issues.
    * I'd like to commend your vigilance on ensuring districts allocate 
resources more fairly and improve students' access to effective 
teachers.
    * I'd like to praise the actions of the Office of Civil Rights to 
document and reduce inequitable discipline practices.
    * I applaud the administration's attention to sexual abuse in 
schools at all levels.
    * I am heartened by your work on behalf of students with 
disabilities to ensure states continue to hold that population to high 
standards.
    * I appreciate your ongoing efforts to ensure that colleges 
adequately prepare students for gainful employment.
    * And I appreciate the ongoing efforts to make high-quality early 
childhood education a reality for all children, not just the privilege 
of a few.
    I also urge you to maintain a laser-like focus on equity in the 
ESEA waiver renewal process. You have the authority in that process to 
bring the focus back to equity for disadvantaged students. You must 
hold the line when states or districts seek to dilute efforts to 
equitably serve all students.
    Thank you for being here today, Mr. Secretary. Thank you for all 
the work you do, day in and day out.
    I look forward to your testimony.
                                 ______
                                 
    Chairman Kline. Gentleman yields back. Pursuant to 
committee rule 7(c), all committee members will be permitted to 
submit written statements to be included in the permanent 
hearing record. And without objection, the hearing record will 
remain open for 14 days to allow statements, questions for the 
record and other extraneous material referenced during the 
hearing to be submitted in the official hearing record.
    Mr. Secretary, welcome back. You are recognized.

    STATEMENT OF HON. ARNE DUNCAN, SECRETARY OF EDUCATION, 
                        WASHINGTON, D.C.

    Secretary Duncan. Just quickly, Mr. Chairman, in response 
to your last question. We were too slow in getting back the 
answers to those questions. I apologize for that.
    I give you my word it won't happen again.
    To Chairman Kline, to Ranking Member Miller and to all the 
members, the story of American education today is a good news/
bad news story. First, let me begin by thanking you for your 
work on the 2014 budget which increased our investment in 
education over the previous year.
    This investment is essential for the good news side of the 
story, which is that our students are making substantial 
progress in graduating from high school and going on to enroll 
in college, be that at a 2-year university or 4-year college, 
trade, technical, vocational training. Our nation's on-time 
high school graduation rate reached a record high in 2012: 80 
percent.
    And if you guys look at the newspapers today, there are 
number of headlines that were extraordinarily positive about 
the hard work that is going on. And I want to thank our 
students, our teachers, families, community members, 
administrators for all the hard work in seeing those high 
school graduation rates hit a record high.
    In addition to that, college enrollment is up as well, with 
Latino and African-American students leading the way in a 
country where the school system is going to become, as soon as 
this fall, majority-minority. That is a hugely important step 
in the right direction.
    The bad news, the flip side of that, is that we still have 
unacceptable opportunity gaps in America. It will be very 
difficult to close those gaps when federal discretionary 
funding for education, excluding Pell Grants, remains below the 
2010 level.
    Our international competitors are not making the mistake of 
disinvesting in education. And their students are making more 
progress than America's students, endangering our country's 
competitiveness and prosperity.
    As everyone here knows, in a knowledge-based global 
economy, the need to close these opportunity gaps and 
strengthen our competitiveness is one of the most urgent 
challenges facing our nation. To continue to fall behind would 
hurt our country economically for generations to come.
    So I appeal to you today to continue America's longstanding 
bipartisan commitment to investing in education. Dating back to 
our nation's founding, the federal government has provided 
incentives to state and local governments to invest in 
education and expand educational opportunity.
    Before the states ratified the Constitution, the 
continental Congress required townships to reserve money for 
the construction of schools and granted federal lands to states 
to create and support public schools. During the Civil War, 
President Lincoln signed the Morrill Act, incentivizing the 
creation of our nation's land-grant colleges, which today 
educate more than 4 million students.
    Just 2 weeks after D-Day, President Roosevelt signed the 
G.I. bill, providing access to education to returning service 
members and veterans. And after the Soviet Union launched 
Sputnik, President Eisenhower and Congress together passed the 
National Defense Education Act to bolster mathematics and 
science education.
    Despite these key investments and the educational progress 
we have made as a nation, large opportunity gaps remain at a 
time when education is more important than ever to accelerate 
economic progress, increasing upper mobility and reducing 
social inequality. President Obama's budget would increase 
investment in education to boost that progress and close those 
insidious opportunity gaps.
    Sadly, those opportunity gaps start with our youngest 
learners and early learning. If we could look at the first 
slide, please. America is 25th in the world--25th in the 
enrollment of 4-year-olds in preschool. Four in 10 public 
school systems in the United States don't even offer preschool, 
setting the stage for a huge gap in school readiness that not 
only President Obama but most of our nation's governors find 
unacceptable.
    In the real world, outside of Washington and away from the 
dysfunction of Congress, this has become an absolutely 
bipartisan issue. In fact, last year, 30 governors, and more 
Republican governors than Democratic, 17 Republican governors 
and 13 Democratic governors increased funding for preschool in 
their state budgets.
    In tough economic times, these leaders chose to use scarce 
taxpayer dollars to expand access to high-quality early 
learning opportunities. Budgets, not words, not empty rhetoric, 
reflect our true values.
    And these 30 governors walked the walk. Just one quick 
example, Governor Schneider in Michigan committed to putting 65 
million more dollars into the state program to ensure children 
in need of preschool have access to it.
    He said that he was going to make Michigan, and I quote--
``a no-wait state for early childhood education.'' And we need 
to help every state be able to make that same claim. And that 
is why the President's request for $500 million for Preschool 
Development Grants and $75 billion in mandatory funding for the 
Preschool for All program are so essential to our nation's 
future.
    They would support state-led efforts to provide access to 
high-quality preschool through a mixed delivery system, both 
public and private, for all 4-year-olds from low and moderate-
income families. And a diverse, highly unusual coalition has 
come together and is working together to support these efforts.
    States attorneys, sheriffs and police associations support 
high-quality early learning because it reduces crime when kids 
grow up. They are tired of locking people up. Military leaders, 
admirals and generals across the nation support it as well 
because three-fourths of young adults today are not able to 
serve in the military because they have dropped out of high 
school, can't pass the entrance exam, are physically unfit for 
service, or have a criminal record.
    High-quality early learning, as we know, reduces all of 
these problems. Our military has always been our strongest 
defense. America's education system must be our strongest 
offense.
    Hundreds of hard-headed business leaders, CEOs, chairmen of 
the board, are big advocates because they know high-quality 
early learning produces a better workforce and has a high ROI, 
or return on investment. In fact, Nobel Prize-winning 
economist, James Heckman, found a return of $7 to every $1 of 
public investment in high-quality preschool programs.
    How many other uses of scarce taxpayer dollars returned 
that kind of investment to America's people? Unfortunately, 
opportunity gaps in early learning continue all the way through 
high school as new data from our civil rights data collection 
program shows. And let's go to the next slide.
    Students of color, students of disabilities and English 
language learners don't get the same opportunity as their white 
and Asian-American peers to take the basic math and science 
courses necessary that figure so importantly in preparing for 
college and career. Often, this lack of access means students 
can't take the required classes they need to apply to 4-year 
colleges or it means they go to college but must then burn 
through Pell Grants and financial aid taking noncredit-bearing 
remedial classes.
    Nationwide, black and Hispanic students are close to 40 
percent of high school students but just over a quarter of 
students taking AP classes and 20 percent of those enrolled in 
calculus classes. This dumbing down of expectations is 
devastating to students, to their families, to communities, and 
ultimately, to our nation.
    And if we can go to this final slide, it highlights 
opportunity gaps and access to high-speed broadband in our 
schools. Most schools today have nowhere near the bandwidth 
speed they need to support current applications and 
instruction.
    Two-thirds of our teachers wish they had more technology in 
their classrooms. As folks here know, technology both empowers 
teachers in very important ways and engages students in their 
own learning and helps teachers to individualize instruction.
    Simply put, once again, other nations take these 
responsibilities, these opportunities much more seriously than 
we do. In South Korea, a very high-performing nation 
educationally, 100 percent of their schools have access to 
high-speed internet.
    Here in the United States, it is only about 20 percent--20 
percent versus 100 percent. So our students, our teachers and 
our schools often lack the bandwidth to take advantage of new 
technologies and tools that could accelerate efforts to close 
achievement gaps and assure that all students graduate from 
high school both college and career ready.
    How is that fair to our children or how is it fair to our 
hard-working teachers? Making progress on closing these 
opportunity gaps is the ribbon, the theme, that runs throughout 
President Obama's 2015 education budget request.
    It is the overarching goal of the preschool development 
grants and the Preschool for All proposal. It is behind our 
request for both a $300 million Race to the Top Equity and 
Opportunity Fund to help states and districts develop road maps 
to ensure all students can reach their potential; and also, our 
$200 million ConnectEDucators initiative to provide teachers 
with the expertise they need to use technology to teach 
students to high standards and to help them individualize and 
customize instruction.
    By contrast, the House Republican budget would widen, would 
increase opportunity gaps. OMB estimates that the Ryan budget 
would cut funding for education by 15 percent in 2016, or by 
about $10 billion. If that 15 percent cut were applied this 
year, Title I for our nation's poorest children would be cut by 
$2.2 billion. IDEA grants, special needs students, special 
education, those grants to states would be cut by $1.7 billion.
    And Mr. Chairman, with the Recovery Act, which you voted 
against, that increased IDEA funding by $12 billion. The Ryan 
budget, which would cut funding, you voted for.
    And so again, it is one thing to talk about it. But I 
wanted to just make sure that folks are paying attention not to 
our words, not to our rhetoric, but to the reality of our votes 
and to budgets. Those cuts to our students, most disadvantaged 
children, poor children, children with special needs, that is 
exactly the wrong direction to go for our children and for our 
nation's future.
    We can and we must do better together. The American dream 
has always been about opportunity. Today, our nation is failing 
to live up to that core American ideal for all of its citizens; 
we must do more now to level the playing field and make a great 
public education available to every child.
    That is who I think we are. As former Florida governor Jeb 
Bush says, the sad truth is that equality of opportunity 
doesn't exist in many of our schools. That failure is the great 
moral and economic issue of our time.
    And it is hurting all of America. So let's get back to 
working together, to close opportunity gaps that we all agree 
are deeply at odds with the American promise of equal 
opportunity. And I appreciate the bipartisan work of the 
committee to pass a charter school bill.
    Bipartisan education bills coming from Congress have 
frankly been few and far between in recent years, to no one's 
benefit. I hope that you can start taking that work to scale 
again and creating bipartisan support for a fiscal year 2015 
budget that will take important steps to provide our nation's 
students and teachers with the support they need.
    And Mr. Chairman, just quickly, before I close, I would 
like to say a quick word about my good friend, Congressman 
Miller. I think this might be the last committee which I will 
be testifying that you are at.
    And I can't say I love testifying in these situations, but 
I have loved working with you over the past 6 years. I talked 
to a retired member of Congress over the weekend, and he said 
that of the entire Congress, he thinks you are the smartest 
member in terms of education issues.
    [Applause.]
    And I think that is a very accurate sentiment. But I have 
to say what I have been more impressed with than your 
intelligence is your courage. And you have been willing to 
challenge the status quo.
    You have been willing to take unpopular positions. You have 
been willing to take on party orthodoxy in the base in a really 
profound way. And if we had more legislators, more members of 
Congress who had that level of courage, I think our nation 
would be a better place.
    So thank you so much for your service and leadership. Thank 
you.
    [The statement of Secretary Duncan follows:]

    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  


    
    Chairman Kline. Thank you, Mr. Secretary. We will talk 
about budgets for just a minute. You mentioned the so-called 
Ryan budget and the President's budget. There are some very 
significant differences there, of course.
    The President's budget, as you know, never balances, 
continues to add to our nation's debt and to the burdens of our 
children forever, whereas the Ryan budget balances within 10 
years. And just to note, the Ryan budget in itself doesn't cut 
a dime from special ed.
    It allows prioritization. And I would hope that we would 
start to prioritize, Republicans and Democrats, administration 
and Congress, the spending for special ed.
    You remember very well, Mr. Secretary--I am sure if you 
don't, I do, very well, your first appearance here when I was 
sitting back over there and asked you about special education 
funding. And you pointed out the spike that you just did again 
which was in the stimulus bill.
    We had a discussion at that time about how a 1-year spike 
is really not very useful to IDEA and the special education 
because it doesn't allow schools to program, to hire more 
teachers and to get an ongoing program. One-year spike is only 
a 1-year spike.
    Secretary Duncan. Just to be clear, it wasn't a 1-year 
spike. That is over a couple of years. That was an additional 
$12 billion--
    Chairman Kline. It was a spike, Mr. Secretary. Reclaiming 
my time. It was a spike. And whether you call it a 1-year spike 
or a 2-year spike, it was a spike.
    Mr. Tierney. Will the gentleman yield--
    Chairman Kline. I will not. Just hang on just a minute. So 
what we have been asking for, what I have been asking for, is a 
commitment to increase funding for special education. It is a 
shortcoming that Republicans and Democrats have had in 
administration and in Congress.
    And we need to work together to increase that funding. When 
I travel to schools, not only in my district in Minnesota and 
around the country, the thing they want most from the federal 
government is for it to start to step up and meet its 
commitment towards that 40 percent of increased funding, which 
was supposed to be provided. We have never gotten over 18 
percent.
    So I guess my question, then, Mr. Secretary, you have got 
over a dozen new programs in this President's budget. But you 
don't have any increase of funding that is available for 
special education.
    Secretary Duncan. So again, I just want to be very clear 
and correct the record. Our budget has a $100 million increase 
for special education. As I said early, the Recovery Act 
increased funding by $12 billion, by far the largest increase 
in special ed funding ever in our nation's history.
    And you voted against that.
    Chairman Kline. I absolutely voted against that, because it 
set us on this path where we are running up huge deficits and 
debts that keep piling on, and because that spike in spending 
doesn't address the needs for our special ed kids, for our 
children across the spectrum. Whether you are special needs or 
not special needs, we need steady funding for special ed.
    And that is what we ought to be working towards. And what I 
am asking--the $100 million so-called increase, you put a set-
aside so actual funds available to fund the program go down.
    Secretary Duncan. No, that is not accurate. That is not 
true. But again, just to be clear, we are both repeating 
ourselves, the $12 billion increase that you voted against, a 
Ryan budget that would lead to a couple of billion-dollar 
decrease--
    Chairman Kline. Okay, we are repeating ourselves. So let's 
stop. The Ryan budget will not decrease special ed funding. It 
allows prioritization where that we can increase that spending 
if we so choose.
    All right, so apparently, you are not going to increase 
that spending year-over-year.
    Secretary Duncan. No, to be clear, our budget asks for a 
$100 million increase in special ed funding.
    Chairman Kline. Thank you. So you are not going to increase 
year-over-year usable special ed funding. Let's move to waivers 
real quickly. In the last 2 weeks, you rescinded Washington's 
waiver because of provisions in the state's teacher evaluation 
law that are inconsistent with the waiver requirements, and 
granted a waiver to Illinois despite the fact the provisions in 
the state's teacher evaluation law are inconsistent with the 
waiver requirements.
    In Washington, you have, in effect, overruled the will of 
Washington citizens as enacted by their elected representatives 
to uphold a requirement that cannot be found anywhere in 
federal law. On the other hand, in Illinois and other states, 
you have shown a willingness to bend your waiver requirements 
to fit state needs.
    How do you find consistency? How do states expect to find 
consistency under those circumstances?
    Secretary Duncan. No, it is very simple. So Washington made 
a series of commitments in writing a year or 2 ago. And in any 
good-faith agreement, both parties need to live up to their 
commitments.
    And Washington, despite the governor's best efforts, 
despite the state lieutenants' best efforts, Washington 
couldn't live up to their commitments. And so, when, in an 
agreement, folks can't do that, the agreement has to end.
    So the door is always open. We welcome them to come back at 
anytime they want. But both parties have to work in good faith.
    Chairman Kline. Mr. Miller?
    Mr. Miller. I yield to Mr. Tierney.
    Mr. Tierney. Thank you. Thank you, Mr. Miller. I was trying 
to get your attention, Mr. Chairman, because I think history is 
a good thing for us to remember once in a while. You weren't 
here.
    And I don't think the Secretary was here either, but there 
was a time when the Republicans had 10 points that they were 
running on. They have got 10 points to save America, whatever 
the slogan was, one of which was to increase the spending for 
IDEA.
    When we got into Congress that year after that election and 
the Speaker of the House now was the chairman of this 
committee, long time from Wisconsin, I offered an amendment to 
the bill that would fully fund IDEA. Not a single member of 
your party voted for it.
    Not one. And everybody on this side did. So there is a 
degree of seriousness about who wants to do something, who 
wants to talk about it. If you have--if people in the Ryan 
budget thought it was so good to prioritize it, they would have 
specified it, not just left it out there so they can say, we 
are going to cut a zillion dollars, just not going to tell you 
where.
    So I hope we get real on this subject at some point. Thank 
you.
    Mr. Miller. I thank the gentleman. I would also point out 
that at that time, there were 345 signatures on a letter to the 
administration calling for full funding of special ed. And we 
couldn't get a vote in the subcommittee.
    There is always a reason. And when you talk about 
prioritizing, we had amendment after amendment on the 
Republican side to cut special ed, to provide money for another 
program. So they were always playing the shortages in 
education, one against the other.
    But the question always was if they increase special ed, 
you had to salvage another program to do that, rather than to 
grow the pot. The record isn't great on special ed, other than 
all of the rhetoric from elected officials about how much they 
support it.
    But when the vote comes, they are never there. That is the 
record on special ed. So thank you for adding money at the 
administration level. We will see where the Congress falls 
through with that at the budget level.
    And by the way, you should know there is about $380 billion 
in tax cuts coming out of the ways and means committee which 
aren't paid for--simply aren't paid for. Or they are going to 
add in the base.
    They have a gimmick. They are going to add in the base but 
just not paid for. So if you need those tax cuts among the 
wealthiest, large enterprises in the country, yet you don't 
have to pay for them, but if you need money for special ed, you 
have to pay for that.
    So we will sort that out over time, I guess.
    Mr. Secretary, I want to touch on an issue that you have 
touched on in your opening statement that is very important to 
me, and your response on the question of dealing with the--with 
now, the renewal of the waivers. And that is the issue of 
equity.
    I had the honor of participating the 50th anniversary of 
the Civil Rights Act at the LBJ Center in Austin, Texas, 2 
weeks ago. And you know, President Johnson made a dramatic 
commitment to equity with that--with the Civil Rights Act.
    And he made the commitment to equity that the--and his 
recognition that equity was not just the absence of oppression 
but it was the existence of opportunity. And that is really 
what--when we look at Title I, when we look at the historic 
federal role, it is really about ensuring that there is an 
opportunity there for all students in our public school 
systems, no matter what their zip code, no matter what their 
neighborhood, that they have that opportunity.
    And as we go through the renewals of the waivers, my 
concern is that we are starting to see people trying to mask 
and combine groups to disguise once again so that parents and 
community leaders and others don't know how individual students 
are doing in that school and whether or not they, in fact, have 
the opportunity to take full advantage of that education. And I 
just wonder if you might play out a little bit how you can look 
at that renewal process--
    Secretary Duncan. Sure.
    Mr. Miller.--with respect to equity.
    Secretary Duncan. Well, first, obviously, everything we are 
trying to do in terms of budget requests is trying to increase 
equity, so raise the top equity opportunity, the access--the 
focus on technology. Obviously, the early childhood play, I 
think, is the best investment we, as a country, can make.
    But actually, I think a great waiver, a great partnership 
has actually been with Chairman Kline's home state of 
Minnesota. Minnesota is a pretty interesting state that 
historically had very high achievement but had some of the 
largest achievement gaps in the nation.
    So overall very strong, but huge disparities in outcomes. 
Thanks to some real courage in leadership, from the governor 
and state commissioner. They have put those issues front and 
center.
    They have given districts targets for cutting achievement 
gaps in half. They are being absolutely transparent and putting 
all of this data out and still a long way to go.
    But they are making some very real and significant 
progress. So it is those kinds of examples of people being 
honest, being truthful, being out there, being transparent, we 
want to support that and folks who are trying to mask things or 
hide things, please hold us accountable for challenging that.
    But there are some other great examples. But I think 
Minnesota is right there at the top of the list of folks who 
are taking these very real challenges seriously and in a very 
honest and straightforward way.
    Mr. Miller. Well, you mentioned the second one, and the 
Congress gave you the funding for early childhood. And I think 
how those grants play out with that in mind, because again, we 
know what the denial of that opportunity in early childhood 
learning opportunities will mean to a child as they enter the 
rest of their educational experience. And I think again, we 
have to look at the equity in those grants.
    Secretary Duncan. Yes, and again, just seeing the type of 
coalition, bipartisan governors, CEOs, military leaders, faith-
based community, states' attorneys, to see so many folks coming 
behind this early childhood play, I just hope and wish and 
plead that members of Congress can look at what is going on in 
the real world and all of their home states and come together 
to increase access. The average child coming from a 
disadvantaged community starts kindergarten at 5 years old a 
year to 14 months behind.
    And frankly, we don't always do a great job of catching 
them up. We have to stop playing catch-up. We have to get our 
babies off to a better start.
    Chairman Kline. Thank you.
    Mr. Petri?
    Mr. Petri. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here. I have got a 
little statement that I am going to read. And I appreciate your 
reaction, if any, to it.
    I am concerned about the state of our federal student loan 
system. Currently, about 15 percent of borrowers who will 
default within 3 years and many more over the life of their 
loan. A portion of these defaults come from excessive 
borrowing, partly driven by the high cost of education today. 
And these are serious problems that need to be addressed by 
this committee.
    Many other defaults are more easily avoided, and in this 
regard, we must consider how we structure the repayment process 
for student loans. Sue Dynarski and the economists at the 
University of Michigan pointed out in a recent paper, the vast 
majority of students do not borrow large amounts of money. Yet 
many of these students are still defaulting at high rates.
    In fact, the average loan in default is about $14,000. She 
argues that for these students, ``We do not have a debt crisis 
but rather a repayment crisis. The current system turns 
reasonable levels of debt into crippling payment burdens that 
can prevent young workers from attaining fiscal independence 
and stability,'' end quote. She advocates for a simple 
streamlined system, where payment amounts are linked to a 
borrower's income, automatically protecting them during periods 
when their income is lower.
    So you know we have options like this now in the federal 
system, income contingent repayment, and income-based 
repayment. President Obama has added to the mix with his pay-
as-you-earn proposal that reduces the amount borrowers have to 
pay and provides forgiveness after 20 years.
    But I am very concerned that the direction the 
administration has chosen to go with this idea. Anyone who has 
used our federal loan system knows that it is a bureaucratic 
nightmare. So finding these income-driven options, let alone 
using them, deters most borrowers.
    At the same time, by providing generous forgiveness, pay-
as-you-earn option is likely contributing to significant over-
borrowing, particularly among graduate students.
    As Jordan Weissmann wrote in The Atlantic last year, 
quote--``We have a student debt system that leaves the most 
vulnerable, least sophisticated borrowers to fend for 
themselves and we are seeing the unfortunate results in our 
default rates. Meanwhile, the high-debt levels among borrowers 
and income-based repayments suggest that many of them are 
probably former graduate students who are generally better 
equipped to navigate the federal government's byzantine 
repayment system,'' end quote.
    I know you proposed changes in your budget to scale back 
some of the forgiveness options.
    However, I am not sure if these changes go far enough. In a 
recent report, Beth Akers and Matt Chingos of Brookings 
advocate for doing away with the forgiveness portion of these 
programs to protect taxpayers and to reward prudent borrowing.
    I have advocated through my ExCEL Act legislation for 
streamlining the federal loan system by linking payments to 
income for all borrowers in a way that is simple and intuitive. 
At the same time, this bill eliminates the forgiveness 
provisions of the current program while still offering strong 
protections to borrowers with low post-graduate earnings.
    The current program is sadly flipped on its head. The 
bureaucracy prevents most students from taking advantage of 
protections they need while the forgiveness rewards those with 
the largest debts.
    We need the opposite--a streamlined system that protects 
all borrowers from default, while being fair, budgetarily 
sustainable, and rewarding prudent borrowing. I am really just 
hoping that you might comment on any of these observations.
    Secretary Duncan. There is a lot there. So I can't say I 
can comment on every issue. I would say quickly--
    Mr. Petri. Very quickly--
    Secretary Duncan. I think we all share your concern with 
high levels of debt and high default rates. And we all need to 
work together to reduce those.
    So a couple of quick things, and love to have a further 
conversation with you and your staff on your proposal, don't 
know all the details there. We are trying to do a lot to 
increase transparency, just getting young people and their 
families basic information, what is a grant, what is a loan.
    This process can be overwhelming to people and trying to 
help them understand that. We also know there are some 
fantastic for-profit universities. They are doing a great job.
    We know others that are taking advantage of disadvantaged 
folks. And for-profit colleges represent about 13 percent of 
the total higher ed population but 46 percent of loan defaults.
    So clearly, there is an imbalance there where people end up 
in a worse position where they started. And we need to look at 
that seriously. The President has challenged us to look and 
think about a college rating system, where we are looking at 
access, we are looking at affordability, we are looking at 
completion rates, trying to, you know, get some sense of value 
there.
    And again, just getting more information out to people will 
be very important. The IBR, income-based repayment, pay as you 
earn, happy to talk about that more but giving incentives for 
people to go into the public sector to take on critically 
important work that we need them to do in classrooms, in legal 
aid clinics, in medical clinics. We feel good about that.
    We think that is a good thing. And then finally, just 
clearly, a hugely important federal role, but this is about 
shared responsibility. So states have to increase their 
investment to higher education.
    Many states cut during the tough economic time. And when 
states cut their funding, universities jack up their tuition. 
But, also, our universities have to do a better job of 
containing costs and using technology in very different ways 
and focusing not just on access but around completion as well.
    So we have an important role to play. Again, this should be 
a topic that we should work in a very bipartisan way on. But we 
also have to challenge other players to come to the table and 
work with us to do the right thing.
    Chairman Kline. Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. A few comments before I get to 
questions. First of all, I noticed it was said earlier that 
your commitment, Mr. Secretary, to Preschool for All is a pet 
project.
    I don't think this is a frivolous pet project. And that 
should not go unanswered. And as for waivers, I know you are 
attacked often for waivers.
    If the leadership of this committee and this House would 
actually get to work and get the Elementary and Secondary 
Education Act up to date and working, there would be less need 
for waivers, I am sure. I want to commend you for the funding 
for the state longitudinal data systems.
    That is critically important for understanding students' 
progress. And finally, I wanted to make a comment and invite 
you to respond, if you want to. It is not actually a question.
    I want to call attention to the TEACH Grants, as one of the 
authors of the TEACH Grants and someone who is very interested 
in the 34,000 students who are taking advantage of those grants 
to go into math and science and other important subjects as 
teachers, I think, this needs to be enhanced. That is barely--
well, it is not sufficient.
    A couple of questions. Recent--or last year, in fact, the 
deputy assistant secretary for international programs, the 
office of international and foreign languages, stepped down, 
has not been replaced, I think has not even been named--the 
replacement has not been named. Given that one of your 
objectives is increasing global competency, and you can define 
that or I could, I suppose, how--what are you going to do to 
address the continuing lack of support for language learning, 
global competency in K through 12, problems in higher education 
with anemic funding for Title VI and the Department of State's 
Fulbright-Hays. A second question I would like to bring up and 
then I will turn it over to you, has to do with your comments 
about Nobel economist James Heckman's findings that the highest 
return on investment is in the first 3 years of education.
    I am a co-sponsor, as are many of us here, of 
Representative Miller's Stronger Start for America's Children. 
Disparities in child outcomes are evident at 9 months. They are 
large by 24 months.
    You know, I understand that early Head Start is 
administered by the Department of Health and Human Services. 
But can you provide a picture of how under the President's 
proposal and George Miller's Stronger Start for America's 
Children's Act and HHS and DOE, Department of Education, would 
work with the states to expand early learning opportunities?
    In particular, is the 15 percent infant-toddler set aside 
sufficient? And if there is time, I have other questions, but 
thank you.
    Secretary Duncan. I think I have four or five. I will try 
and go through them really quick. As everyone here knows, the 
waiver plan was always plan b. Plan A was always bipartisan 
reauthorization of the ESEA.
    I just want to keep coming back to that bipartisan theme. I 
am not interested in Democrat-only bills. I am not interested 
in Republican bills. That is not how the world works.
    I am very interested in your charter bill, because that 
seems to have significant bipartisan support. There is a kernel 
of something there that I think is really worthy of attention.
    So we continue to ready, willing, able, today, tomorrow, 
next week, to work in a bipartisan way to fix the law. That is 
first. Second, TEACH Grants are very important. We want to make 
sure they are going to individuals, but also to institutions 
that are truly preparing future teachers for the rigor of that 
very important, very complex job so you know some teacher prep 
institutions, schools, do a pretty good job.
    Many, frankly, don't. And far too many young teachers feel 
they are unprepared to enter the classroom. That is not good 
enough, and we want to challenge that status quo.
    In terms of international competitiveness, foreign 
languages, we want to do more there. Happy to talk with you 
about it. Met with my counterpart from Japan yesterday, talked 
about trying to significantly increase the number of exchange 
students going both ways. And I am just a big fan, obviously--
multiple benefits that you understand so well.
    And finally, just to be clear, we have worked in absolute 
partnership with HHS from day 1. All of this work on the early 
childhood space has to be a seamless continuum of opportunity 
from birth through age 5, entering kindergarten, early home 
visiting, strengthening families, early Head Start, Head Start, 
going to pre-K.
    HHS team has been fantastic partners, met with them 
actually again yesterday. And so we are linked at the hip. They 
are not being redundant, not being duplicative, but trying to 
make sure that young people have opportunities to enter 
kindergarten not a year to a year-and-a-half behind.
    Mr. Holt. Well, since you didn't really answer the specific 
questions I had on those programs, I hope you will provide that 
in writing as soon as possible, please. But--
    Secretary Duncan. Happy to do that.
    Mr. Holt.--thank you very much.
    Chairman Kline. The gentleman's time has expired.
    Ms. Foxx?
    Ms. Foxx. Thank you, Mr. Chairman.
    Thank you, Mr. Duncan, for being here. I remain concerned 
about current state authorization regulation and draft 
regulations coming out of the negotiated rulemaking session.
    It is one thing to say states must authorize institutions 
that operate within their states. It is an entirely another 
thing to dictate precisely how those states are to do it. And 
then, if you don't agree with it, punish the students for 
attending the institutions within the state.
    Aren't you using the federal regulatory process to push 
states into regulating institutions according to a federal idea 
rather than what may work for students in the institutions 
within the state?
    Secretary Duncan. I am happy to continue that conversation 
with you further. Again, we just want to make sure that young 
people are being well-served.
    Ms. Foxx. I would also reiterate what the Chairman said at 
the beginning. We would like some answers to some of the 
questions that we send you in a more timely fashion.
    So I look forward to getting more information--
    Secretary Duncan. I commit to you on that. And I apologize 
for that.
    Ms. Foxx. Last year, the President announced the 
development of a new college rating system that would compare 
colleges with similar missions, and will be based on access, 
affordability, and outcomes. I appreciate you have taken steps 
to gain some feedback from the community on this proposal.
    I speak to a lot of students and families about their 
college search and actually spent some time during the Easter 
break visiting campuses with my grandson, who is a junior in 
high school this year. And so I am seeing this from a very 
personal level.
    So in my experience, every family looks at different 
options. Why do you assume the federal government can rank 
colleges and thereby, presume to know what is best for millions 
of students and their families as they research their 
postsecondary options?
    Secretary Duncan. No, I don't--we don't presume to know 
anything. It is--I think you know that we have gone into this 
with a great sense of humility and really trying to listen and 
talk to folks, have had multiple forums with folks around the 
nation.
    But it is interesting, your state is not dissimilar to 
very, you know, probably every other state. You have 
institutions of higher education that have like a 95 percent 
graduation rate.
    You have others that have a 12 percent graduation rate so 
95 percent to 12 percent. And we, at the federal level, thanks 
to your support, we put out about $150 billion in grants and 
loans to institutions of higher education each year.
    And that $150 billion is all based upon inputs. None of it 
is based upon outcomes. And again, I think this is an area that 
should be a huge interest to our Republican friends of trying 
to have some accountability there and our graduation rates 
going up or down.
    Are people taking their mission seriously, not just on the 
access side but on the completion side? That is a massive 
taxpayer investment each year. And we want to make sure that 
taxpayer investment is being used wisely.
    Ms. Foxx. We had, many, many hearings on the Higher 
Education Act as well as all the legislation that we have put 
forth in this committee. And one of the things that we hear 
over and over and over again is that the department collects 
mounds and mounds of data.
    But from that, we get very little--
    Secretary Duncan. Yes.
    Ms. Foxx.--information. So rather than the department 
setting up rating systems--there are lots of ratings systems 
out there done by the private sector--why don't you just make 
information public? Why don't you revise the way you collect 
data and then, make that available to the public?
    We like transparency. We don't think we are getting a lot 
of transparency from the department. So why not just put out 
useful information and let the public make the decision about 
how to rate the institutions?
    Secretary Duncan. So we have done a tremendous amount to 
increase transparency. I would agree with you, we have to 
continue to do that. I think as you are going through with your 
grandson, this could be an overwhelming process, and for 
families who are first-generation college goers or new to the 
country, navigating all of this--what is a grant, what is a 
loan, not what is the 1-year cost, what is the 4-year cost, 
what are graduation rates, what are the chances to get a good 
job at the back end?
    There is a huge amount of information we should have out 
there. So we are going to do everything we can to increase 
transparency. And please partner with us and please challenge 
us to do a better job there.
    At the end of the day, though, we think of that $150 
billion annual investment over time, we would like to see more 
of that money going to places that are serious about graduation 
rates, that are serious about reducing their own costs, that 
are serious about making sure young people actually prepare to 
go into the world of work and get a good job, and away from 
those places that don't take college completion seriously, that 
just see--you know, that see a free paycheck coming from the 
government every single year. So we think taking that next step 
is important as well, in addition to transparency.
    Ms. Foxx. Thank you.
    Chairman Kline. Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here today. I 
appreciate very much, Mr. Secretary, the reminding all of us 
that the issues that we are dealing with in education is indeed 
a civil rights issue. It is an equity issue.
    It is an opportunity issue. It is an economic issue. And 
with that backdrop, let me ask two questions with regard to 
equal access and opportunity. How will the President's new 
proposal on early childhood affect existing state and local 
early childhood programs such as pre-K or child care programs, 
and in particular, Head Start, which is under the Ryan budget, 
taking a crippling, destructive $750 million hit.
    How is this initiative overlay with those?
    Secretary Duncan. So our goal is very simple on the early 
childhood space. We simply want to remove children from waiting 
lists at the state level.
    And as I travel state to state to state, despite the, you 
know, 30 governors who are investing, which we feel very good 
about, you see 6,000, 8,000, 13,000, 15,000 kids routinely on 
waiting lists. So our goal would be to keep kids going to 
existing programs.
    But for those hard-working children and families who are 
trying to do something better for the kids before they start 
kindergarten, giving them that chance in a very concrete way, 
that is what this money would go for. And I want to be clear, 
you can't do this on the cheap.
    You are paying for teachers. You are paying for classrooms. 
You are paying for materials that don't exist today. So anyone 
who says they are for early childhood education but not willing 
to invest more money, they are not walking the walk.
    They are not living their values.
    Mr. Grijalva. And elementary and secondary education, the 
2013 GAO report outlined the failure of far too many charter 
schools to report critical data, particularly with regard to 
students with disabilities, English language learners, and poor 
kids in general. In the current budget climate, Title I is at 
pre-sequestration levels, is below pre-sequestration levels in 
this budget.
    What assurances can you tell us about that the $248 million 
proposed for charter schools will go to institutions that 
provide equal access to--
    Secretary Duncan. Yes.
    Mr. Grijalva.--distinct population, English learners, 
students with disabilities, poor kids, compared to what 
traditional public schools are being required to do at this 
point?
    Secretary Duncan. Happy to follow up on the details of your 
question. But simply put, we only want our money to go to 
replicating high-performing charter schools. There is often a 
debate charter versus traditional.
    I just think it is the wrong debate. It is a false debate. 
We just need more high-performance schools, traditional 
charter, whatever they might be.
    High-performing schools are a part of the solution, low-
performing schools are a part of the problem. So we want to be 
expand, to be very clear, those charters that are getting great 
results but are working with, to your point, their proportional 
share of poor children, English language learners, special 
needs kids, homeless kids. so many charters are set up. That is 
their mission, was to serve kids that have not had all the 
advantages and haven't had great opportunities traditionally, 
and again, hold us accountable to make sure we are doing that 
correctly.
    Mr. Grijalva. Appreciate that. And just, we talked about 
the Ryan budget is about prioritization. So if it goes to IDEA, 
that is a priority, that this Congress would--by definition, 
the Ryan budget means that severe cuts will be in other areas 
on top of the cuts that are already part of the Ryan budget. If 
indeed, prioritization for IDEA, and meeting our mandated 40 
percent is part of the issue, that will require extra 
resources.
    And we shouldn't be afraid to talk about extra resources as 
opposed to robbing Peter to pay Paul in this particular 
instance.
    I yield back, Mr. Chairman.
    Chairman Kline. Gentleman yields back.
    Dr. Roe?
    Mr. Roe. Thank you, Mr. Chairman. And I know that our 
Chairman is one of the most supportive people of the 
disabilities--ever since I have known him, the 5-1/2 years I 
have been here, he has been incredibly supportive.
    Mr. Secretary, I think probably the biggest challenge we 
have in education in the country is to narrow the achievement 
gap. And I had spent a lot of time since you were here last, I 
have read a number of books and research.
    And one of them I have read and everybody in this room 
should read, ``I Got Schooled'' and I know you have met with 
the author of this book. And we find out that the achievement 
gap, our schools, really, in a lot of places, are doing a 
fantastic job.
    In many places, they are doing a very poor job. And so we 
don't have to reinvent the wheel. We know what to do and what 
works and what doesn't work. And we know we need effective 
teachers.
    We know we need leadership in the classroom. We know we 
need data to find out if what we are doing is actually working. 
We need probably smaller schools.
    That is a bigger one, because that is a very expensive 
thing and then more time in the schools. So we start--I want to 
start with just your--early education.
    If you look at a child that is--lives in a poverty area, 
they hear 30 million less words by the time they get to 
kindergarten than a child in a higher income does--30 million 
less words. The problem with it is if we go through pre-k and 
don't continue these other metrics I have talked about, you 
lose all of that.
    Vanderbilt just published a study, not a year ago, that 
showed that very thing, that those gains are lost by the end of 
the first grade, I think it is. One of the things I would ask 
you to do is to certainly look at HHS, the Head Start program, 
which works in some places and doesn't work in other places. 
Find out what works there.
    And if you are thinking about increasing this and certainly 
governors around the state are, combine those programs instead 
of here committing to another gigantic program. Let's look at 
what we have got, the money--because our resources, as the 
Chairman pointed out, are limited.
    Definitely, we would want to do that. And just so that 
everyone in this room understands and how well some schools are 
doing, if you take schools that have 10 percent or less 
poverty, and that is 75 percent or more free and reduced lunch.
    We have the highest PISA scores in the world. So it is 
pockets that we have to go to and focus on. And are we doing 
that? Or are we just taking a gigantic shotgun and shooting at 
the whole country?
    Secretary Duncan. No, I think you have really studied this 
issue. And I appreciate your sincere commitment to thinking it 
through. So I agree with many of the points you made.
    Just to challenge you on two. We absolutely have to look at 
Head Start and look at everything. But to be clear, we can't 
get to where we need to go simply with existing dollars.
    And we want to go from about 1.1 million children with 
access to prekindergarten to 2.2 million. So simple 
reallocation doesn't help you to do that. Second, just to 
challenge a little bit the assumption that all of these gains 
disappear, what Dr. Heckman talks about--again, it would be 
great to have him come and testify and you can ask him lots of 
questions.
    He came to this with a great deal of skepticism, frankly. 
What he saw is not over a year, but over three, four, now going 
on five decades' massive return on investment--
    Mr. Roe. No, I agree with that, Mr. Secretary. One of the 
things that also is lost, it is not in your budget here, is in 
the summertime--I don't know whether any summer programs or not 
but low-income children lose almost 3 months, 2.8 months of 
gains in reading during the summer.
    Your children, my children, they don't. We are going to 
have them at the library. We are going to have them doing all 
kinds of things. So that is fairly simple thing that would 
negate those losses.
    And if you lose 2.8 months in 3 or 4 years, you are a year 
behind no matter how good you do.
    Secretary Duncan. No, so again, couldn't agree more. Not a 
lot in our budget Title I resources for poor kids can 
absolutely be used in that way. More schools are thinking about 
year round.
    Maybe of the successful charter schools are just working 
longer hours. So we love that kind of innovation. And one place 
we don't need another study is around summer reading loss.
    Mr. Roe. Yes.
    Secretary Duncan. You hit the nail on the head. And we just 
need to stop--we need to end that cycle.
    Mr. Roe. I agree. Well, let me go quickly to this, because 
my time is limited. One thing that affects my district 
specifically is the Impact Aid payment for federal poverty 
programs. You eliminate that. And what that does--
    Secretary Duncan. Sorry, I can't hear you. Say again.
    Mr. Roe. I am sorry, it is the Impact Aid payments for 
federal property programs, in other words, in lieu of taxes.
    Secretary Duncan. Yes.
    Mr. Roe. I have a county that has 55 percent or 60 percent 
of that county is owned by the federal government. I grew up in 
a county where Fort Campbell, Kentucky, was and took the best 
farmland and best agriculture land we had.
    Those schools are hit severely with this. One of my 
schools, it is $188,000. That is not a lot of money for here. 
But it is a small, rural county.
    Secretary Duncan. Yes.
    Mr. Roe. We have to--you cannot do that. This puts them at 
a great disadvantage in rural America. There are 250-something 
school systems that this affects.
    Secretary Duncan. So don't know the details of that 
specific situation, but happy to follow up with you and find 
out--
    Mr. Roe. Okay, and one other thing I want to ask you that--
can you tell us what the graduation rate is for Pell Grants? 
And I want to finish by saying our state--I want to brag on 
Tennessee--our governor just produced a program, was passed by 
the legislature, to provide free community college and 
technical college for everyone in our state.
    Secretary Duncan. Yes.
    Chairman Kline. The gentleman's time has expired.
    Mr. Courtney?
    Mr. Courtney. Thank you, Mr. Chairman.
    Mr. Secretary, the last time we spoke was one of the few 
brief shining moments of the 113th Congress where one of the 88 
bills that has been enacted was about to be signed by the 
President last August. I was with Mr. Kline for the legislation 
that protected the Stafford loan program from going to 6.8 
percent.
    And as you know, it is at 3.8 percent for this academic 
year.
    Secretary Duncan. That was a shining moment of bipartisan 
work.
    Mr. Courtney. It was. And the President at the time--and 
there was a lot of head-nodding going on, was saying that our 
work is not finished. And that is why, when I look at the Ryan 
budget, in terms of its impact on higher ed programs, I mean, 
it just takes your breath away--$260 billion in cuts to Pell, 
$145 billion, $41 billion on Stafford, which I will talk about 
in a second, wipes out the income-based repayment program, and 
incredibly gets rid of the American opportunity tax credit, 
which allows middle-class families to get a tax credit to pay 
for college.
    About 11 million families lost $1,100 under the Ryan 
budget. I always thought Republicans were for cutting taxes. 
But you know, nothing seems to surprise me, I guess, in terms 
of the way their priorities play out.
    But on the Stafford program, which, again, everybody was 
kind of patting themselves on the back for the fact that we 
protected the rate increase from going into effect--effective 
last July 1, what their measure does is it eliminates the in-
school interest protection, which is there for subsidized 
Stafford loan students.
    That is about seven million students who, again, don't have 
interest accumulate while they are actually in college. The 
estimate from the CBO is that it adds about 3,000 to the 
interest level of students at time of graduation, who use 
Stafford.
    So the $1 trillion price tag of student loan debt, which 
is, you know, stifling our economy, hindering people's 
advancement, they just added another 41 billion. And this is a 
program which, by the way, doesn't cost the taxpayers money.
    Stafford is an interest-bearing program that the federal 
government actually nets out with a positive cash flow 
according to CBO. So they basically raised revenue through this 
measure of in-school interests by eliminating that protection 
for students.
    And again, I think the record has to be crystal clear here. 
They are taking us backwards in terms of the issue of higher 
education affordability. Now, your budget came out with a 
number of proposals, which again, addressed the other side of 
this, which I hear about all the time at home, which is, you 
know, when are we going to do something about rising tuition 
costs?
    Well, again, eliminating this help for students doesn't do 
a thing as far as that is concerned. But again, your proposal 
is to try and change incentives to colleges so that 
affordability is going to be one of the criteria that they have 
to demonstrate.
    And I was wondering if you could talk about that a little 
bit this morning.
    Secretary Duncan. I just think again there is a lot of room 
for honest debate and disagreement, discussion. I just--right 
now, we are 12th in the world in college graduation rates. One 
generation ago, we were first.
    It is not that we have dropped. We have stagnated. We have 
flat-lined, and 11 countries have passed us by. In a flat 
economy, flat world, where jobs going toward where the most 
educated workers are, I think we can all agree that being 12th 
in the world is not a badge of honor.
    It is not something we can be proud of. It is not 
acceptable. And we have to figure out how we go from 12th in 
the world to first as fast as we can. And anything that reduces 
access to college, that makes it harder to go, more expensive, 
takes us in the wrong direction.
    So we have to get better faster. We have high school 
graduation rates going up, which is huge. We have to make sure 
those high school graduates are truly college and career ready.
    And there is some very significant work going on around the 
country there. But that has to translate to higher college 
completion rates.
    So let's find ways to work together to get there, but 
reducing access, reducing affordability, making it more 
expensive rather than less. I just think we are hurting our 
country.
    We are cutting off our noses to spite our face. And jobs 
are going to go to countries that take this responsibility and 
this opportunity more seriously than us.
    And if we want to keep high-wage, high-skilled jobs here, 
if we want to build the middle class, the only way to do that 
is to increase access to some form of higher education.
    Mr. Courtney. Great. And I think the rating system, which 
again, is to help families and students make smart choices and 
not end up into that default bucket that Mr. Petri had talked 
about, I think, is a definitely a good path.
    And for the record, Mr. Chairman, I just want you to know 
that the president of the University of Connecticut, the Hungry 
Huskies, has embraced the administration's plan and is willing 
to go along with the rating system that the Department of 
Education--
    Chairman Kline. I thank the gentleman for not talking about 
basketball.
    Mr. Courtney. I yield back.
    Chairman Kline. Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman.
    And thank you for being here, Mr. Secretary. I would concur 
with what my colleague from Tennessee indicated about the ideas 
brought about in ``I Got Schooled.'' All of those ideas, as I 
read, from an individual, certainly doesn't come from my 
perspective on a lot of issues, but on education, made sense.
    And all of that went more to the power of the local 
district, the power of the local administrator, especially the 
building principal, being able to do a mentoring process, 
developing great teachers, and promoting great teachers, and 
even suggesting to teachers who have certainly plenty of well 
meaning, aspirations, yet aren't going to make it in the world 
that we have right now to bring kids through the education 
process. And that certainly says to me the top-down central 
planning that goes on from Washington, from Congress, from the 
Department of Education, yourself, and the responsibilities you 
have, may not be the best direction.
    And if we want to give, as you indicated already, about my 
governor, making some significant statements and attempts and 
strides at growing education in our state, dealing with early 
education, having a no-wait plan in place, a K-20 process, all 
sorts of good ideas that are being developed at the local and 
state levels, where they actually know what is happening in the 
schools, or at least have the ability to do that. We ought to 
be encouraging it.
    Mr. Secretary, the Chairman already asked you about what 
appears to be the inconsistent application of waiver. You 
indicated the waiver isn't your first plan. It is getting ESEA 
passed. But nonetheless, that is where we are at right now.
    I understand that Michigan is one of those states whose 
waiver has been flagged as potentially problematic largely for 
the same issue Washington faced. Michigan has enacted a teacher 
evaluation law that gives school districts more flexibility and 
incorporating student achievement into the evaluation than you 
would prefer, as I understand that.
    So are you planning to rescind Michigan's waiver?
    Secretary Duncan. I don't know the details of that 
situation. That hasn't come to me. I have great working 
relationship with both of your governor and with your state 
superintendent. So happy to continue to talk, but not one I 
have been focused on recently.
    And let me just--your first statement, I think you presumed 
that we somehow disagree. I want to be clear there may be more 
common ground than you realize.
    Part of the reason I have been so angry about No Child Left 
Behind is it was very, very loose on goals; so 50 different 
goalposts, 50 different standards, but very tight, very 
prescriptive from Washington in terms of how to meet those 
goals. Now, I remember when I was running the Chicago public 
schools, I had to beg our Department of Education to allow me 
to try and tutor about 20,000 of my kids after school who 
Washington was telling me I couldn't do it.
    It was absolutely crazy. We won that argument. So what we 
are trying to do, hopefully in a bipartisan way, in terms of 
reauthorization at some point, I think the right tradeoff is to 
be tight on goals, have a high bar, make sure all of our 
students--Michigan, Mississippi, Massachusetts, it doesn't 
matter--are actually graduating, and graduating college and 
career-ready, not having to take remedial classes, will be much 
looser, but less prescriptive and let locals--
    Mr. Walberg. On how you make it--how you make it happen, 
correct?
    Secretary Duncan. What is that?
    Mr. Walberg. On how you make it happen.
    Secretary Duncan. On how you make it happen. So tight on 
goals, loose on means, that is where I think No Child Left 
Behind got fundamentally wrong, and in any kind of 
reauthorization, those are the values that we think would be 
absolutely essential.
    Mr. Walberg. And I certainly think that is the direction 
that our Chairman and this committee would like to go, in 
making sure that we provide the opportunity for those local 
school districts and our states to meet high goals, yes, but to 
have a great deal of latitude. Yesterday, I was, met with a 
class in the largest land space area of a school system in the 
state of Michigan.
    It is a rural school system, a lot of land space, smaller 
in size of students. A week before, I met with the largest 
school system in Michigan. And that wasn't Detroit.
    That was Saline school system, doing a great job, but a 
large population that have to deal with there. And so we have a 
great amount of variety. And for a top-down management system 
to work in this nation, move us back to a setting where we are 
number one in college graduations as opposed to number 12 and 
the like, is something we ought to be moving toward.
    Let me ask one final question here. You have listened to 
higher ed institutions give you some feedback on the rating 
system that is being proposed. What have you heard?
    Secretary Duncan. Heard lots of things. And I will be very 
clear. This is very difficult intellectually. This is complex. 
I am very aware that some of the disincentives, the preferred 
incentives, there were in No Child Left Behind.
    Last thing we want to do is replicate those in the higher 
ed space. So you want to make sure that universities that are 
working with a more challenging population aren't compared to 
Harvard or Yale or Stanford or whatever. That makes a lot of 
sense.
    You want to make sure you are maximizing choice and 
transparency. You want to make sure that young people who want 
to go into teaching, orgoing to the Peace Corps, or work in a 
nonprofit. Somehow, if you are looking at earnings at the back 
end not creating incentives that take individuals or hurt 
universities for encouraging folks to do public service, you 
know, to do good.
    So those are the types of feedback that we have heard. And 
there is trepidation on any kind of change. There is also some 
significant support out there. But we are taking this very, 
very seriously, and again going into it with a real sense of 
humility. Last thing--
    Chairman Kline. Gentleman's time has expired.
    I am sorry, Mr. Secretary.
    Ms. Fudge?
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And thank you, Mr. Secretary, for being here. Certainly, I 
do want to say before I ask my question, with all due respect 
to our Chairman, the Ryan budget is not fiscally or morally 
sound. It fails the test of even a budget.
    If you can't determine where your revenue is really coming 
from in any reasonable, real way, or where your cuts are coming 
from, it is not a budget.
    Mr. Secretary, I just want to talk to you a bit about Pell 
Grants. We know that right now, Pell Grants are aiding more 
than nine million low-income Americans in this country.
    And in the President's budget, there is a provision that 
would provide Pell Grant eligibility to students who are co-
enrolled in adult and post-secondary education as part of a 
career path. I am working with some of my colleagues across the 
aisle on a bipartisan bill which would expand eligibility for 
the Pell Grant program to early college and dually enrolled 
high school students.
    What are your thoughts on that?
    Secretary Duncan. First of all, I just want to appreciate 
your leadership in so many issues that you and I have worked 
together on. And you--I think you are passionate on these 
education issues in extraordinarily thoughtful ways; want to 
thank you for your leadership.
    Ms. Fudge. Thank you.
    Secretary Duncan. So we haven't talked enough about this 
today. But all this dual enrollment, whether it is taking A.P. 
classes, whether it is actually taking college classes on 
universities, 2-year, 4-year, those are huge, huge programs. I 
am a big, big fan.
    And to be very clear, this is not just for the high fliers. 
I actually think these are good dropout prevention programs.
    Ms. Fudge. Yes.
    Secretary Duncan. And students that might be on the margin, 
start to take those classes and think maybe I can belong in a 
college. Maybe I can be successful.
    I went to an amazing early college that is actually located 
on a college campus in El Paso, Texas, all low-income students, 
virtually all immigrants, a ninth-grade biology class. These 
ninth graders were getting college credit for that class.
    Think about what that does in terms of not just 
academically, but psychologically how empowering that is. So 
how we create more opportunities, I am very interested in Pell 
Grant being an interesting, you know, possibility there.
    We would love to play and talk about some experimental 
sites. But if we had more students--let me just be clear--high 
school diploma, for me, is a starting point, not an ending 
point.
    If every high school student was graduating either with 
college credits in their back pocket or industry certification, 
then I would feel much better about where they are going to be 
able to--what they are going to be able to do long-term. So 
would love to partner with you to think this through.
    Ms. Fudge. Thank you, Mr. Secretary, because what happens 
now is that those high schools that we are so excited about 
that have these programs are bearing the cost of this program, 
or these kids are. And it really is, I think, unfair if we are 
going to promote them, to not assist them so--
    Secretary Duncan. Yes.
    Ms. Fudge.--we will continue to talk about it.
    Secretary Duncan. In some places--I don't know who is here 
from Iowa, but Iowa has about like 25 percent of their high 
school students taking college-level classes. They have worked 
out at the state level some pretty interesting partnerships 
where the K to 12 is not bearing all the costs.
    Ms. Fudge. Right. Thank you. Secondly, I have heard you 
mentioned all of our students a number of times today in your 
testimony. And I am greatly concerned with the rising number of 
competitive grant programs coming out of the Department of 
Education.
    How do you plan on ensuring equal funding and opportunity 
for all students and not just the limited number of students in 
school districts that have the infrastructure in place to write 
good grants?
    Secretary Duncan. So again, just to be clear, there is not 
a rising number--the percent of our budget, roughly 88, 89 
percent of our budget is formula-based and 10, 11, 12 percent 
of our budget is competitive funding. So that has been pretty 
consistent.
    So there hasn't been a big swing there. And--
    Ms. Fudge. But it is a swing since you came in, where there 
are more competitive grants now than there were prior to this 
administration.
    Secretary Duncan. Yes, and we feel proud about that. But 
that is a long--
    Ms. Fudge. Now, that is the point I am making.
    Secretary Duncan. Just year-to-year budget has been about 
the same percent. Two quick answers, and again further 
conversations, one is we have tried to make sure that as we do 
these type of competitions that we have a very diverse slate. 
And there are lots of concerns that rural communities somehow 
couldn't compete.
    And we have--I think we have improved, frankly, and rural 
communities are absolutely getting their fair share. And so we 
are looking not for the fancy PowerPoint for people that have a 
real sincere commitment.
    And we could go sort of grant program by grant program, and 
show you who the recipients have been. And we think it has been 
pretty representative. And we always go where the greatest need 
is.
    So we are not going to high fliers. We are going to the 
most disadvantaged communities, promise neighborhoods, you 
know, other things like that. The other thing that is so 
important is that when we have done these types of things, we 
have seen very significant changes in behavior.
    So it is not just those receiving the money that benefit. 
But we are seeing other districts start to move in more 
profound ways. So, promise neighborhood is a prime example.
    There are dozens and dozens of great applicants I wish we 
could fund, but we just don't have the dollars available. But 
many of those communities have come together, have a blueprint 
now, have a vision, and are working together with or without 
our money.
    Now, I wish we could fund them. But there have been lots of 
residual benefits from putting these kinds of programs in 
place.
    Ms. Fudge. Thank you.
    Mr. Chairman, I yield back.
    Chairman Kline. Thank the gentlelady.
    Mr. Guthrie?
    Mr. Guthrie. Thank you. I just want to point out, the 
budget review and today, I know was just said that the Ryan 
budget is not moral and fiscal, but I would just overall 
comment on the budget we are reviewing today. It does raise 
taxes.
    It does close loopholes. And still adds trillions of 
dollars for the debt to our--the very kids we are talking about 
today will be paying this back for generations. So I just want 
to--you know, as we are going to just be honest about it.
    The waivers and I actually--you read through the bill, you 
do have broad discretion on waivers. And the application of 
that--and I was hoping when I first got on this committee, we 
would reauthorize and change No Child Left Behind, because that 
was a well-intentioned bill that has a lot of issues that need 
to be fixed.
    You know, one or two ways, comment or let's let the 
Congressional leadership do it. Well, we have passed a bill to 
the Senate. And I wouldn't expect the Senate to pass our bill.
    They can. But that is the process for them to send the bill 
back and let's conference on it. We are doing it on the 
Workforce Investment Act, which a vote went out of here.
    I think it got--I think it was a partisan vote. And we are 
hopefully close to having a final bill through the Senate. So 
it is not impossible to do. Just has to have the will to do it. 
So it comes--so our leadership has taken a stance on fixing No 
Child Left Behind.
    Secretary Duncan. It is not impossible. I just think it is 
not the most strategic or the most successful way of doing it.
    Mr. Guthrie. To do a bill--let the Senate amend our bill in 
conference?
    Secretary Duncan. No, no, to do it in a partisan way.
    Mr. Guthrie. No, it is not. But I am saying that the bill 
is in the Senate, that has happened. And it has happened with 
the Workforce Investment Act. The other way you do it is the 
President grab the attention of the country, which George Bush 
did.
    And now, we are all pointing out the flaws of the bill, but 
was able to do a bipartisan--it was a very bipartisan bill that 
passed. And the thing with the waivers, I think, and is my 
issue with it, because I think there is some broad discretion 
there, I sure agree with everyone.
    But I think there is broad discretion. You can argue is 
that--it just takes the pressure off the Senate to fix 
anything. And if there is an issue that is before us, and we 
need to fix it, we know, and you can waive, and the Senate can 
say, well, we don't like this bill.
    But we are getting what we want by waivers, then why would 
they ever come to the table to negotiate? And that is the 
problem I have with the waiver system.
    Secretary Duncan. So again, I just fundamentally disagree 
with that. You should absolutely be feeling the pressure every 
single day, because I am feeling the pressure every single day.
    Mr. Guthrie. Well, this--
    Secretary Duncan. Waivers are a poor, second choice to 
fixing it. And for us to do nothing would have been 
educationally and morally irresponsible. You look at what 
states have done in the waiver process, moving away from a 
focus on a single test score, looking at high school graduation 
rates, looking at reducing dropout rates, looking at college-
going rates, looking at college-going, not needing remedial 
classes.
    Many states have brought in hundreds of thousands of kids 
who were invisible under No Child Left Behind. This gets a 
little technical, because--and sizes were so high, they were 
not part of any accountability system.
    And states are stepping up and saying, we want to better 
serve poor children and homeless children--
    Mr. Guthrie. Well, I am not disagreeing with what they are 
doing. I am saying that the pressure on the Senate to act seems 
to not be there for whatever reason it seems to not be there.
    Secretary Duncan. I fundamentally and absolutely disagree 
with that. You should feel huge pressure--
    Mr. Guthrie. Well, we did. And when there is a bill sitting 
in the Senate so they can act on--
    Secretary Duncan. This bill is continually 6 years overdue 
for reauthorization.
    Mr. Guthrie. But there is a bill in the Senate.
    Secretary Duncan. So let's--okay, let's not all point 
fingers.
    Mr. Guthrie. Oh no, I am just saying, that is--
    Secretary Duncan. Hold me accountable, I am happy to help 
in any way that would be constructive to moving forward in a 
bipartisan way.
    Mr. Guthrie. And I am willing to do so as well. The one 
question I do have on the blueprint for career and technical 
education--
    Secretary Duncan. Yes?
    Mr. Guthrie. I have had some of my--Carl Perkins is from 
Kentucky. So it is a really used program there. The concern 
going from a state formula to a state competitive grant, and 
you are trying to focus on consortia between secondary and 
post-secondary, which I absolutely agree with, because you 
know, getting out of secondary with just these skills and not 
going to post-secondary is not the best way to--so you are 
trying to incentivize that, which is absolutely right. But the 
concern that my--some of my more rural and smaller--if it is in 
my town of Bowling Green, Kentucky, it is easy for our schools 
and Western Kentucky to have a consortia.
    Secretary Duncan. Yes.
    Mr. Guthrie. We have a swath of land. Geographically, they 
are just not covered by some of our higher ed institutions. And 
there is some concern so I will just answer the concern of 
rural smaller schools that may not be able to form a consortia, 
or not be closer or--how will they be able to prosper under 
this situation?
    Secretary Duncan. Yes, so happy to work it through, and all 
we are trying to do is getting cut through silos that have--
    Mr. Guthrie. I agree with that.
    Secretary Duncan.--high schools talking to community 
colleges, to have both talking to the private sector and just 
making sure we are preparing students for real jobs that exist, 
not the jobs of 30 years ago. So anything we can do better in 
that blueprint, you will get 2 years out of date now.
    So we are happy to update. So give us your best thoughts--
    Mr. Guthrie. Yes, there is--that if it goes in a 
competitive nature, it is going to go to more cities and bigger 
cities, and programs. And they are concerned about that.
    Secretary Duncan. So just to be very clear on that one, 
what we have done in other things, we have done in absolute 
priority or separate slate. And again, we can go through sort 
of, you know, our i3 stuff, other things we have done where we 
have had very significant rural population.
    So that part then being left to decide, I am less worried 
about that. But the consortia idea is one I would like to 
continue to think through.
    Mr. Guthrie. And I agree with that. That is just a way to 
get there. We need to work--I look forward to working with you 
on that.
    Thank you, Mr. Chairman. I yield back.
    Chairman Kline. Thank the gentleman.
    Mr. Polis.
    Mr. Polis. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for joining us today to discuss 
the Department of Education's priorities. I want to thank you 
under your leadership, we truly are witnessing the 
transformational power of an innovative and disruptive federal 
role in our schools.
    Your signature program Race to the Top for which I 
introduced the standalone bill earlier this year, has spurred 
and continues to spur a wave of policy changes that help states 
raise the bar for students and teachers, promotes innovation 
and accountability for school districts, for school leaders, 
and for educators. Thanks to Race to the Top, states and school 
districts, including my own home state of Colorado have built 
systems to evaluate and support teachers and principals, invest 
in our youngest learners by expanding high-quality preschool, 
and turning around our nation's persistently failing schools.
    Your administration has shown strength and courage despite 
this body's inability to act to reauthorize a long overdue and 
antiquated No Child Left Behind law. Many of your budget 
requests will bring us closer, but only a full reauthorization 
of NCLB will truly move the needle.
    I was also encouraged to hear your complimentary words 
about this committee's work on the charter school 
reauthorization. We hope that we will have the opportunity to 
pass that bill on the floor of the house. It truly is a 
bipartisan approach that improves the quality of the limited 
federal resources that are available to go to charter school 
start-ups.
    And I hope that you convey your support for these efforts 
to the Senate. We believe this bill is a realistic way to focus 
on what we agree on rather than what we disagree on. And I look 
forward to working with you and the administration to move 
forward on the full overhaul of NCLB or whatever, if we can 
find to agree on.
    A few months ago, I led a bipartisan letter with 25 of my 
colleagues in support of the administration's ConnectED 
initiative, which you mentioned in your remarks, which aims to 
connect 99 percent of schools with broadband in 5 years. How 
will the administration's ConnectEDucators initiative give 
teachers the tools and resources to take advantage of the 
bandwidth?
    Secretary Duncan. Okay, just quickly, it is fascinating--
fascinating to me that education always moves so slow. So 
technology has changed how all of you guys do business.
    It has changed how you guys interact socially. It has led 
to democratic revolutions around the globe. And technology has 
changed education like 2 percent. It is on the margins.
    And when I look at what other countries are doing for their 
children, I worry for our kids. When I see South Korea being at 
100 percent access and our schools at 20 percent high-speed 
broadband; our kids are at a competitive disadvantage.
    I don't understand that. So what we are looking to do is to 
dramatically increase access to high-speed broadband, which I 
think can drive both equity and whether it is inner city 
communities or rural or remote communities, or native American 
reservations, having access to AP classes and foreign language, 
we think is really important. And it can drive excellence.
    Students can move much faster, move ahead. So we just think 
there is a huge play here. We need to increase schools' 
capacity there. But then we have to train teachers as well so 
the budget request there, $200 million, is to give teachers the 
skills they need to customize learning, to individualize it.
    Teachers can support each other not in their buildings but 
across the country and across the globe in new ways. And so we 
think this can have a transformative impact over time.
    We want to make sure teachers have the skills to be fully 
equipped to take advantage.
    Mr. Polis. I also want to follow up on one of my colleague, 
Ms. Fudge's questions. She talked about the grant base 
programs. In addition to allowing the administration to have 
the highest and best possible impact on student learning with 
limited resources by directing them through grants, including 
many of your signature initiatives, Race to the Top, Investing 
in Education, SEED, expansive replication for charter schools, 
how do these grants help raise the bar across the country for 
policy changes and develop a base of best practices that 
everybody could benefit from?
    Secretary Duncan. So it has been interesting that in--for 
all the, you know, noise or whatever, every single time we do a 
grant competition, we have way more great, great applicants 
than we have dollars available. So clearly, there is an unmet 
need there.
    And at the end of the day, while the money is significant, 
it is really not about the money. It is really about unleashing 
innovation. And we have played at the state level.
    We have played at the district level. We have played at the 
community level with promised neighborhoods. So you are trying 
to impact all of them. As I said before, you have seen a level 
of courage.
    You have seen a level of creativity. You have seen a level 
of collaboration and innovation that simply didn't exist before 
those opportunities were created.
    So I just want to, you know, thank you, again, for your 
courage, your leadership. You have lived this work in a way 
that many of your colleagues frankly haven't.
    I think you understand both our strengths. But I think you 
share our sense of urgency of how far as a nation how far we 
have to go. We have to get better faster.
    We have to do it in a time of scarce resources. And more of 
the same, more of just the incremental change, isn't going to 
get us where we need to go.
    Mr. Polis. Thank you for your time. And in my home state of 
Colorado, while we didn't win the first or second run of Race 
to the Top, we are winners because of the policy changes, 
including educator evaluation and high standards that, in part, 
were in response to Race to the Top.
    I yield back the balance of my time.
    Chairman Kline. Gentleman's time has expired.
    Mr. Gowdy?
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Secretary, I want to congratulate you on your MVP 
award, NBA celebrity all-star game. I thought your assisted 
turnover ratio could have been a little bit better but--
    Secretary Duncan. I will work on that one.
    Mr. Gowdy.--you were in the arena and the rest of us were 
not. And when I listen to criticism of our colleague, Paul 
Ryan, I can't help but think, Mr. Secretary, his budget, his 
budget passed.
    The President's budget, which by the way, none of my 
colleagues on the other side of the aisle, had the courage to 
introduce, it had to be done by a Republican, got zero votes 
last year and two votes this year. So when we want to talk 
about moral courage and we want to bang on Paul Ryan while he 
is not here, keep in mind, your boss's budget got a whopping 
two votes in the last two times it was offered.
    So let me ask you this. Do you think government can engage 
in intentional racial discrimination to further a compelling 
governmental interest?
    Secretary Duncan. I am not quite sure I understand the 
question.
    Mr. Gowdy. Well, this letter that you wrote with respect to 
school discipline talks about important state goals. I want to 
ratchet it up from an important state goal to a compelling 
state goal. Can government intentionally discriminate, de jure 
discrimination to further a compelling governmental interest?
    Secretary Duncan. Again, I don't know the details your 
question. What guidance are you referring to?
    Mr. Gowdy. The letter with respect to discipline from 
education and DOJ.
    Secretary Duncan. So happy to talk about that. So I won't 
answer your question directly. I don't know the details. But I 
was--you learn something new everyday in this job and it is 
part of the reason I love it.
    But I was stunned when the civil rights data collection 
process data came out, that as a nation, we were suspending 
pre-school students and expelling them from school. I had no 
idea.
    It was mind-boggling to me that we would be kicking 3 and 
4-year-olds out of school and not serving them. And when we--
    Mr. Gowdy. Well, let me stop you right there because in a 
former life, I was a prosecutor and it sounds great to say not 
serving them. You also have kids in preschool and first grade 
who are following the rules, which leads to the question of are 
you serving them by putting them in an environment that is not 
conducive with learning because of disruption.
    Secretary Duncan. Yes, so--
    Mr. Gowdy. And the question then becomes is Washington 
better able to make that decision or the local school boards? 
But your letter with--I say your letter--you didn't write it 
but you and the attorney general had a press conference on it.
    And what I am trying to get at is I don't know how you 
would have voted on the affirmative action case last week in 
Michigan. But there was a dissent that was lauded by some of my 
friends on the other side of the aisle where government can 
engage in intentional--not de facto--intentional racial 
discrimination to further a compelling governmental interest.
    My question is because you used the phrase ``important 
governmental interest,'' which school safety and discipline 
would be, but yet you are not looking at intentional 
discrimination. You are focused on de facto discrimination if 
they just have a disparate impact--
    Secretary Duncan. So you are a prosecutor, I am not.
    Mr. Gowdy. I am a former prosecutor.
    Secretary Duncan. Former prosecutor. Just to go back to the 
data around the preschool stuff, which I am familiar with, what 
we found was that black students represented 18 percent of 
preschool enrollment but 48 percent of the students suspended 
more than once. So 18 percent of enrollment, almost half the 
kids suspended more than once.
    Mr. Gowdy. All right, well, Mr. Secretary, I am telling 
you--
    Secretary Duncan.--and let me finish. Let me finish.
    Mr. Gowdy. All right, you--
    Secretary Duncan. And in many places, you saw children 
doing similar behaviors, similar--
    Mr. Gowdy. That is what I want to get at because that is--
first statistic means nothing to me because 95 percent of the 
people I prosecuted for child pornography were white. So that 
is a disparate racial impact.
    But I never stopped to think, well, gosh, I wonder if we 
ought to reconsider our prosecution on child pornography. But 
you use several examples in this letter. One of which was a 
Hispanic student fighting with a non-Hispanic student.
    One got a 2-day suspension, one got a 3-day. Who was the 
primary aggressor? Who started the fight? And would that 
matter? Would you give less time to the person who started the 
fight?
    Secretary Duncan. Of course, it would matter. But at the 
end of the day, so you--I take that first statement which you 
sort of blew--blow through--I take it very seriously, the fact 
that 18 percent of children are receiving virtually half of the 
out-of-school suspensions. And these children are 3 and 4 years 
old.
    I want to be very clear. That is deeply, deeply troubling 
to me. And I am going to go to your other point.
    Mr. Gowdy. Troubling from the standpoint that they are 
engaging in conduct that would warrant being disciplined or 
troubling from the standpoint that they are being kicked out of 
school?
    Secretary Duncan. Troubling that they are being, 3 and 4-
year-olds, are being kicked out of school. Where there is 
disruptive behavior, you need to deal with it.
    You need to deal with it aggressively.
    Mr. Gowdy. Well, Mr. Secretary, how do you deal with it? 
And who is best able to deal with it?
    Secretary Duncan. Let me explain. So I worked in very 
challenging communities all my life. I worked with kids coming 
with huge challenges. And the easy thing to do would be to kick 
them out of a program I ran and put them back on the streets.
    And what we found was ways to work with them, to work with 
their families, to get to the root of issues. If I had a child 
who is acting up in my after-school program and they witnessed 
horrific domestic violence last night at home, makes you think 
differently about how you handle that child.
    That is the kind of thoughtfulness that has been missing 
and that we want to put that in place. I have been to high 
schools that have had huge discipline problems.
    And the adults have actually stepped back and created peer 
juries and challenged students to own the behavior and to own 
the expectations.
    Mr. Gowdy. I get that.
    Chairman Kline. The gentleman's time has expired.
    Ms. Bonamici?
    Ms. Bonamici. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here today. I am 
pleased to see that the President's budget invests in education 
and begins to address some of the gaps and opportunities for 
American students. And this is, as we have discussed, in stark 
contrast to the Ryan budget with its cuts.
    I am particularly concerned about Pell Grants and IDEA as I 
have been visiting schools in the 25 school districts in my 
Congressional district, I hear repeated concerns about the 
Title I and IDEA funding. Before I ask a question, I just 
wanted to make a couple of remarks in response to some of the 
things we have discussed regarding the achievement gap.
    I want to point out the importance of the 21st century 
community learning funding and the importance of extended 
learning opportunities. Some of these programs I visited have 
shown a tremendous opportunity to help, especially kids at 
risk.
    And with regard to the student debt that was discussed 
earlier, Portland Community College in Oregon is doing some 
great work on financial literacy, getting financial plans in 
effect with the student before the academic term. And they have 
been able to cut the number of accounts assessed with late fees 
by 70 percent and reduce the number of accounts sent to 
collection by more than half just with that increase in 
financial literacy.
    So there is some great working being done out there.
    So Mr. Secretary, my first question is about the 
President's request for the 170 million for a new STEM 
innovation initiative that would use competitive grants to 
recruit educators and get more students ready for STEM careers. 
And in the budget, it says scientists and engineers are 
innovators.
    And we must ensure that our nation's capacity to innovate 
and compete is never limited by a shortage of talent in STEM 
fields. And I couldn't agree with you more about innovation and 
its importance.
    I have had a lot of conversations with a lot of the tech 
communities in my district and also with companies like Boeing, 
Intel, Lockheed Martin, about the importance of developing a 
workforce capable of thinking creatively and driving 
innovation. So as the co-chair of the Congressional STEAM 
caucus, it talks about the importance of integrating arts and 
design into STEM curriculum to help students educate both 
halves of their brain and ultimately produce innovation, can 
you talk about whether the competitive awards under the STEM 
innovation initiative will be available to schools and 
educators that are pioneering the STEAM model, the Hillsborough 
School District in Oregon, for example, which integrates arts 
education into STEM.
    Secretary Duncan. First of all, thank you so much for your 
leadership. STEM, STEAM, I am for it all. We need to, again, 
all these false battles, false dichotomies--we need to bring 
this together.
    And if you want to improve math results, try a little 
music, you know--
    Ms. Bonamici. Exactly.
    Secretary Duncan.--yes, so you know all this stuff. So what 
we want to do is we think there are far too many children who 
have great aptitude and interest in the STEM fields and just 
don't have access to great teachers and great courses. And we 
lose that.
    And we know so many of the jobs of the future, again, the 
high-wage, high skilled jobs, hugely disproportionate number 
are going to require some passion and expertise and love of the 
STEM areas. So we are trying to do a couple of things.
    We want to create a STEM master teacher core where great 
STEM teachers can make some more money and mentor those younger 
teachers so we don't lose them. We want to make sure we have 
great STEM teachers, not just for AP, calculus and physics, but 
in third, and fourth and fifth grade, when so many children 
start to turn off because--
    Ms. Bonamici. Right, Mr. Secretary, I appreciate the value 
of the program. My question is will that funding be available 
to STEAM schools as well.
    Secretary Duncan. Again, I don't see a conflict between 
STEAM and STEM. So--
    Ms. Bonamici. Terrific.
    Secretary Duncan. I would look at it.
    Ms. Bonamici. Great.
    Secretary Duncan. But at the top of my head--
    Ms. Bonamici. Thank you.
    Secretary Duncan. I have no reason to think they would not 
be able to apply--
    Ms. Bonamici. And--on a related note, I am concerned about 
the consolidation of the arts and education program into the 
well-rounded education program, especially since the budget 
proposal requests only 25 million for the consolidated program, 
which would supports arts, health education, foreign languages, 
civics, government, history, geography, environmental 
education, economics and financial literacy--all important. 
Now, this request is actually less than last year's request and 
represents the amount that arts in education had received 
independently.
    So I am very concerned, as we are looking for ways to make 
sure we are educating the whole child about that change. So are 
there other programs in the budget that could support students' 
creativity?
    Secretary Duncan. Just one quick. With the first, just to 
be clear, what we are trying to do and all this stuff is hard, 
is not have lots of one-out small programs and sort of be able 
to better manage it. So that is the goal there.
    But just one quick example, we have put a huge emphasis on 
turning around chronically underperforming schools. And part of 
the reason high school graduation rates are going up, because 
dropout rates are going down. And we are trying to challenge 
the status quo in pretty significant ways, one of the 
strategies is still early but it looks very promising is we 
have had a series of schools that have been turned around using 
the arts-based curriculum.
    So we are putting additional resources from a separate pot 
from the school turnaround money behind that. And there are 
eight schools around the nation. I have visited a couple of 
them.
    It is pretty amazing to see and so that is another place 
where significant resources are going to enhance an arts 
curriculum in disadvantaged communities that is showing some 
pretty significant results.
    Ms. Bonamici. Thank you. I see my time has expired.
    I yield back. Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentlelady.
    Mr. Salmon?
    Mr. Salmon. Thank you.
    Secretary Duncan, as you know, the Department of Education 
recently proposed a cut to financial aid to career-oriented 
programs whose graduates have high debt-to-income ratios. The 
court spoke on this and blocked the measure in 2012.
    We recently convened a field hearing in Arizona where this 
issue came up. I asked the question of two of our public 
universities, President Michael Crow of ASU and the president 
of the University of Arizona.
    The president of NAU was not there but one of their 
representatives was. I asked the question, if this rule were 
proposed for for-profit universities, would you support the 
same rule for not for profit universities, and public 
universities, every one of them said yes.
    They said all three said that if such a rule comes out, 
that all should be held to the same standard. Secretary Duncan, 
when you released the gainful employment regulation, you said 
protecting students is at the core of the rule.
    And if that is truly the case, have you examined how 
nonprofit programs like expensive law degrees or culinary arts 
degrees fare if the proposal is applied to everyone? If the 
bill was introduced to apply such a regulation to all of higher 
education, would you support it?
    Why or why not?
    Secretary Duncan. Well, just to be clear, we are trying to 
get this part right now and happy to have that further 
conversation as you come out to speak at Arizona State's 
graduation a couple of weeks and looking forward to that. 
President Crow is a remarkable, remarkable leader and--
    Mr. Salmon. He is the best.
    Secretary Duncan.--yes, he--pretty amazing what he has done 
there. And honestly, many of the values, not just on the 
gainful stuff but many of the values around the college rating 
system are values that I have learned from him and others.
    So let us try and get this part right first. But your basic 
point about greater accountability, that is what the college 
rating system is about. It is about trying to make sure again 
that $150 billion in grants and loans of taxpayer money is 
being used more wisely than it is today.
    Mr. Salmon. So it should be applied across the board and 
you would support legislation to apply it equally to all higher 
education?
    Secretary Duncan. Well, again, we are doing two different 
things. I just want to be clear. We are working on the gainful 
regs. And we are also trying to develop a college rating 
system.
    Mr. Salmon. Right. But what I am saying specifically is on 
the idea of gainful employment. Wouldn't it stand--why should 
the students that go to public universities, why are they any 
less important? Shouldn't we put forth legislation--
    Secretary Duncan. Yes, the question, again, we are not 
there yet. And we are just trying to get these two complicated 
pieces right first.
    Mr. Salmon. No, I understand that. But wouldn't you agree 
that--that all these students are equally important?
    Secretary Duncan. Every student is important, yes, sir.
    Mr. Salmon. Absolutely. Well, we may be introducing 
legislation along the lines to make sure that public 
universities would be under the same provisions you are 
proposing on the gainful employment. I think that all students 
ought to be equally protected.
    Thank you.
    Secretary Duncan. Happy to have that conversation.
    Chairman Kline. Gentleman yields back.
    Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman.
    Secretary Duncan, thank you for joining us this morning to 
share President Obama's fiscal year 2015 budget for the U.S. 
Department of Education. I applaud you for continuing to 
support increased investments in education for all.
    As you know, federal higher education like Europe and HEP/
CAMP and TRIO as well as Hispanic-serving institutions and 
HBCUs and MSIs, which are vitally important to educating 
students of color and preparing them for college. Since fiscal 
year 2011, however, funding levels for these programs have 
decreased due largely to sequestration.
    I am concerned those cuts have never been fully restored.
    Mr. Secretary, why are you recommending that Congress 
invest in a host of new higher education programs instead of 
increasing the funding levels for those that I enumerated? 
Those programs are working for disadvantaged students.
    Secretary Duncan. Yes, so obviously, we are big, big 
supporters of TRIO and GEARUP and I want to personally thank 
you for all your leadership in education. And you have worked 
as hard on these issues as anybody.
    And that means a lot to me personally. So--
    Mr. Hinojosa. Thank you.
    Secretary Duncan.--while we have to continue to increase 
access, I have to say the President and I have become 
extraordinarily concerned about the affordability of college. 
And it is one thing to get students ready if they can't afford 
to go where we have this mounting debt.
    We worry about what that means to young people and 
ultimately, to the country.
    So we are strategically making a choice to try and invest 
more not just on the access side in preparing students but in 
making sure they can afford to get through college and not have 
prohibitive costs, prevent them once they have gone through 
strong programs from completing their dreams.
    Mr. Hinojosa. I want to work with you on that. By 2018, 
two-thirds of the nation's jobs will require at least some 
postsecondary education, is what I have heard you say. 
Fortunately, the nation is making progress.
    For example, the graduation rate among Latino students has 
increased more than 10 percentage points since the year 2006. 
However, our progress is uneven.
    And we must do more to improve high school graduation rates 
and prepare those students for college and careers. Mr. 
Secretary, I and several other colleagues here will soon be 
introducing the Cap and Gown Act to help strengthen America's 
high schools and support President Obama's high school redesign 
efforts.
    Can you tell us more about the President's vision for high 
school redesign program?
    Secretary Duncan. Sure. We simply want to make sure that 
high schools are engaging students and are relevant. And I 
worry that many students drop out of high school, not because 
it is too hard but because it is too easy.
    They are bored. And they don't know why they are coming to 
school every single day. And as everyone here knows, the 
economy has changed. If you drop out of high school today, you 
are basically condemned to poverty and social failure.
    And that wasn't true 20 or 30 or 40 years ago. So the 
stakes have gotten much higher. So we talk about high school 
redesign. I will tell you about one high school that I went to 
a couple of months ago and the President is going to go give 
the commencement there; it was Worcester Tech in Worcester, 
Massachusetts.
    A couple of years ago, it was a failing school, huge 
issues, huge dropout rates. They now have done many, many 
things to engage students in their own learning. So they have a 
full-fledged veterinary clinic, where young people are taking 
care of animals.
    They have an auto body shop. They have a culinary program. 
They have a fully functioning credit union, where students are 
working there and getting paid to do that. And basically, the 
school has become this amazing community asset.
    And not surprisingly, dropout rates that were a huge issue 
have almost disappeared. And graduation rates have soared. We 
want to see more high schools thinking about how they link what 
students are learning during the school day to the real world.
    Those students at Worcester Tech and other similar 
schools--they know why they are coming to school every day. 
They are excited. They know the relevance. We want more schools 
to learn from those examples.
    Mr. Hinojosa. The Republican or the Ryan budget cuts Pell 
Grants by 145 billion by eliminating all mandatory money and 
reducing funding to the nondefense discretionary funding. The 
experts believe that this would potentially cut millions of 
such students from the programs, leaving them to borrow more in 
loans, or they may just drop out of college.
    How would this cut impact our ability to reach President 
Obama's goal to lead the world in college attainment by 2020? 
And how would these cuts impact students of color?
    Secretary Duncan. Anything that reduces access to higher 
education hurts young people, hurts families, hurts 
communities, and hurts our country. Our goal together, 
bipartisan, should be to lead the world in college graduation 
rates again as soon as we can.
    Mr. Hinojosa. Lastly, we have worked together to expand the 
Pell Grant program and make student loans more affordable. But 
college costs continue to increase as the states disinvest in 
higher education.
    How is the Department of Education creating incentives for 
colleges to control costs?
    Chairman Kline. Gentleman's time has expired. We will take 
that for the record.
    Mr. Rokita?
    Mr. Rokita. I thank the Chairman.
    Thank you, Mr. Secretary, for joining us again, several 
questions to go through with you. In my role as a subcommittee 
chairman here, I visited some tribal communities recently.
    And a lot of the jurisdiction there belongs of course to 
the Department of the Interior. But in terms of school 
structures and some other things, I think there are some small 
pieces that you, in fact, have.
    One concern that I saw was that one tribe, in particular, 
was afraid, quite literally to invest in new school buildings 
and even T1 lines, you talk about technology and accessibility 
for fear that the government would then come back and say, oh, 
I see you got that done however you got it done, bonding or 
whatever. And therefore, we don't need to do it.
    And of course, promises have been made under the--a very 
long time and promises need to be kept. Can you quickly comment 
on that and would you join me in an effort to either write your 
boss or write the Department of Interior to help solve this?
    Secretary Duncan. Absolutely. And I am going to be very, 
very clear that as we talk about inequities and disparities, no 
one has been more poorly served than our native children. Any 
measure of gaps--achievement gaps, opportunity gaps, the worst 
of the worst in terms of outcomes are in the native 
communities. So--
    Mr. Rokita. I appreciate it. Could you help me solve this--
    Secretary Duncan.--let me--so I will help on that one to be 
clear, while the Department of Interior has much of this, I 
want you to know I have put one of my top deputies there full-
time to try and help them figure out a better way to educate 
children. So we are not--
    Mr. Rokita. Thank you.
    Secretary Duncan.--we are all working on this together.
    Mr. Rokita. Thank you for that. That is not the same guy 
that is supposed to be responding to our letters, is it?
    Secretary Duncan. No comment.
    Mr. Rokita. I used to run five agencies as well. I am 
just--if I have time, I will get back to that.
    Secretary Duncan. That was on me. That was on me. That is 
my fault.
    Mr. Rokita. No, no, and you know what, that is a strong 
mark of character, quite frankly. I want to say that for the 
record. I was in a meeting earlier this morning where an 
apology could have been made and an apology wasn't given.
    And I think goes to character, I think goes to leadership 
and I appreciate you saying that. More specifically, I like 
work with you to make sure that you say the responses will be 
more timely.
    I would like to know what that is, what you are going to do 
to correct it, whatever situation you clearly have going on 
inside your office so that we can have on both sides, a 
reasonable expectation about what reasonable response means.
    Secretary Duncan. Well, I will do very quickly just come 
back to the Chairman and give him a time frame and he will not 
be shy about holding me accountable to stick to the time.
    Mr. Rokita. Okay, thank you. Moving onto Washington state, 
noting that no one from that state is represented here on this 
committee and, again, in my role as a subcommittee chairman, I 
will--and the Chairman talked a little bit about this as well--
I am concerned about the waiver being revoked. I get it.
    I understand accountability. You and I agree on that. 
However, if evaluations of these teachers were performed, what 
would the specific measurable outcome be? What should we expect 
as federal policymakers from this?
    Secretary Duncan. And again, we are trying to leave 
tremendous discretion. Every other state so far has figured 
this out.
    So there is no one way to do this. And we are trying to 
provide maximum flexibility. At the end of the day, what I 
believe and what I think you believe is that the goal of 
teaching is not to teach.
    The goal of teaching is to have children learn. And a 
piece--not the whole thing--but a piece of teacher evaluation 
should be based upon student learning. That is the simple 
request.
    That is the commitment that Washington state gave. And 
unfortunately, to date, they haven't fulfilled that. Again, 
they can come back tomorrow and fulfill that.
    But all we are saying is that we think teaching is hugely 
important.
    Mr. Rokita. Yes, of course.
    Secretary Duncan. We think great teachers make a huge 
difference in students' lives.
    Mr. Rokita. And having been there like you have been there 
and talking to parents and teachers and community leaders, 
surely, they care. Surely, they understand the frustration and 
issues.
    And I agree that schools must exist for the students. They 
don't exist for the adults. And I think what you are trying to 
do serves that purpose.
    Would you also, though, acknowledge that no person, no 
staffer, no bureaucrat in your department knows the children of 
Washington state better than the parents and teachers and 
taxpayers of Washington state?
    Secretary Duncan. Of course. This is a big country. A 
hundred thousand schools, 15,000 school districts.
    Mr. Rokita. So on gainful employment, you believe that the 
public education system should be subject to that same rule?
    Secretary Duncan. Well, again, I want to be clear. We are 
working on gainful employment regs. We are also working on a 
college rating system. And those are the two pieces of work 
that we are engaged on now.
    Mr. Rokita. But Purdue and IU should be subject to both 
those, just like ITT and--
    Secretary Duncan. I don't know all the details there so let 
me come back to you on that one.
    Mr. Rokita. Okay. By when?
    Secretary Duncan. I will talk to the Chairman about it.
    Mr. Rokita. Well, I am asking the question. The Chairman is 
not. By when? Can you give me an answer, how you feel about 
this?
    Secretary Duncan. I will work relatively as quickly as I 
can.
    Mr. Rokita. What does that mean?
    Chairman Kline. The gentleman's time has expired.
    Mr. Takano?
    Secretary Duncan. Thanks for saving me.
    Mr. Takano. Thank you, Mr. Chairman.
    First of all, Secretary Duncan, I would like to thank you 
and the administration for proposing a budget that makes real 
investments in our education system from pre-k to post-
secondary education. I can't tell you how disheartening it is 
to see the Ryan budget with all its cuts to education pass the 
House.
    And I would note that it didn't pass by a huge margin. The 
clock was kept open. And it barely passed. I think it was like 
219 votes, from what I recall. I am pleased to see that this 
budget includes an investment in high school redesign through a 
competitive grant program.
    I was excited to hear the President mention it in his State 
of the Union address. However, the contours and details are 
kind of mystifying to me. Can you tell us what are some of the 
key elements of a successful grant proposal, what they would 
be?
    And what are you really looking to do with high school 
redesign?
    Secretary Duncan. So we talked about it a little bit 
earlier. But what we want to make sure is that we continue--we 
are thrilled high school graduation rates hit an all-time high. 
We announced yesterday, 80 percent graduation rates. But I 
worry a lot about that 20 percent that don't graduate and what 
their lives are going to be like once they get on the streets.
    And we know there is not anything out there for them. So 
what we want to do is to make sure that high schools continue 
to be very relevant for young people, that they understand what 
the jobs are in their communities, why they are going to 
school, what that leads to.
    We want to make sure they are rigorous, more access to 
high-level classes and dual enrollment opportunities and 
industry certification. And we want to make sure that high 
schools are building relationships with young people who might 
be struggling and might have a real challenge at home or at 
school in the community.
    And so high schools that are serious about making sure a 
hundred percent of their students graduate and graduate college 
and career-ready, we need more schools that look like that. 
That is what these resources are for.
    Mr. Takano. So do you--so early college and concurrent 
enrollment programs are part of the redesign?
    Secretary Duncan. Yes, absolutely. We talked earlier. I 
don't know if you were here, but I am a huge fan of dual 
enrollment and early college programs, just nothing but upside 
there.
    I would like to do a lot more of that so these resources 
can be used there. We did recently with the Department of Labor 
a $100 million dollars, high school redesign through youth 
career connect.
    That is a possible use of funds, and finding ways to expand 
opportunity there. I think we should all be working hard on 
that.
    Mr. Takano. You know, as a teacher before I came to 
Congress and as a community college trustee, I have been 
involved with some of these concurrent enrollment programs. I 
have visited Barton, the college high school in lower 
Manhattan, have had actually students come to my classrooms in 
Texas and California who told me about their experience with 
some of these early college programs.
    Do you see early college also being applied to career and 
technical education?
    Secretary Duncan. Oh, it absolutely is. It absolutely is. 
Again, many places doing that well. But I think our collective 
challenge is always how do we take to scale what works.
    And again, you have lived this in a way that many folks 
haven't. So we think we have done some pretty good work to 
increase these opportunities, but I know there are many more 
children out there who could benefit, than have the opportunity 
today. So we would love to work with you to figure out how we 
expand these best practices.
    Mr. Takano. Do you believe that the concurrent enrollment 
and the early college and the middle college strategies could 
have an impact on lowering the cost of education of middle-
class families? Well, higher education, I am talking about.
    Secretary Duncan. To be clear, we now have some high 
schools where high school students are graduating with an 
associate's degree. So by definition, they are reducing 50 
percent of their higher ed costs.
    So it absolutely reduces costs, which is very important. 
What I said earlier is I am as excited about the fact not just 
the cost savings, cost reductions to families. But I think this 
is a really important dropout prevention strategy, I think 
creates these opportunities for kids who haven't had it is a 
really big deal.
    Mr. Takano. As you know, a lot of these strategies require 
a counterintuitive approach, which is actually we have got to 
reduce class sizes at the secondary level in order to enable 
the seminar-style teaching that some of the pedagogy requires. 
I was interested in your conversation with Congresswoman Fudge 
about somehow, Pell Grants got mixed into that conversation.
    And you and I had a conversation about the justification of 
the federal role in some of the early college models since we 
are actually offering college-level instruction. So could you 
elaborate on that some more?
    Secretary Duncan. Well, I think she asked the question, if 
I am recalling it correctly, of whether we should be looking at 
Pell Grants as a potential use of funds to help expand access 
to early college opportunities. And that is the kind of 
creative thinking that I think we should all be engaged in.
    So if we want to take to scale something that we know is 
good, we should leave no stone unturned in thinking about doing 
that and would love to have that conversation. Actually, we 
have staff working pretty hard on these issues as we speak.
    Mr. Takano. What is your--
    Chairman Kline. Gentleman's time has expired.
    Mr. Takano. Oh--
    Chairman Kline. Mr. Thompson?
    Mr. Takano. Thank you.
    Mr. Thompson. Thank you, Mr. Chairman.
    Secretary Duncan, good to see you. I think the last time we 
talked, we were breaking bread and talking about how to best 
serve the needs of this nation's youngest learners. I always 
appreciate those opportunities for conversations and love it 
when we can see eye to eye.
    Wanted to--you know, the department's budget request 
focuses heavily on equipping the need to fill the jobs in the 
21st century economy. And I think that is very appropriate.
    However, you do not propose any additional resources for 
the Perkins funding. Last month, over 91 members of the House 
through the advocacy of the bipartisan Career and Technical 
Education Caucus requested the Appropriations Committee return 
career and technical education programming to pre-sequester 
levels.
    And we talk a lot about the unemployed, the underemployed 
and the--and probably not enough but some about the dwindling 
workforce participation, which is I think incredibly important 
to the strategic success on the future of this country. Now, 
the solutions to address some of those problems is CTE 
programming through the Carl D. Perkins Career and Technical 
Education Act.
    Now, there are not too many social ills, I believe, that 
can't be addressed, or a good family sustaining wage job. 
Career and technical education programming enables individuals 
to have the skills necessary to be truly career and college 
ready. Now, I have concerns with the department's proposal to 
move $100 million from CTE state grants for a new, competitive 
innovation fund.
    And it is just--my two--my first two questions kind of go 
together. You know, why does the department continue to 
prioritize spending on untested and often duplicative education 
initiatives when we have a tried and true solution in Perkins?
    And why move money, funding away from a full commitment to 
fund the program?
    Secretary Duncan. Well, first, appreciate your sincere 
interest and commitment on the early childhood space and 
appreciate you taking the time to have that conversation and 
also really appreciate your interest in the CTE funding. And 
that is a hugely important way. Again, we talked about 4-year, 
2-year technical, vocational training, just some form of 
education beyond high school has to be the goal.
    So I am a huge fan of this. We have the blueprint out for 
reauthorization. Happy to get any feedback you have on that. 
That is a year or 2 old now.
    But what we are simply trying to do is make sure that those 
programs are training students for the jobs of tomorrow and not 
of 20 or 30 years ago. So quite candidly, again, I go to, you 
know, hundreds and hundreds of schools.
    I see some CTE programs that are cutting-edge and world-
class. I see others that are a little bit outdated. And so what 
we are trying to do, not to invest in unproven programs, we 
want to take to scale what is working and to make sure that 
these scarce resources are being used wisely, being used well 
to prepare students for the jobs and for the skills they need 
going forward.
    Quite candidly, that is not always the case with Perkins 
funding. In many cases it is. In some places, it is not being 
used as thoughtfully as we would like. And so we are just 
trying to challenge that status quo.
    Mr. Thompson. Well, I share Mr. Guthrie's concerns with 
this--significant concerns. Moving money away from a program 
what really is consistently proven and I think it puts at a 
disadvantage, what is 32,000 school districts that are rural in 
this country, that, you know, approximately 30 percent of all 
schools fall in that category and many of them obviously don't 
have their resources to be at--
    Secretary Duncan. So--
    Mr. Thompson.--as competitive.
    Secretary Duncan. So let me just check it, then get, hold 
us accountable, what we have done in other competitions again 
is whether it is a competitive priority or separate slate. We 
have made absolutely certain that rural schools and communities 
are well-represented.
    I think we have gotten better over time in doing that. We 
can show you what we have done in other competitions. But I 
think we can address that specific concern pretty well.
    Mr. Thompson. Well, the shifting of $100 million dollars, I 
think is just a significant concern, moving that away from 
Perkins. It is not--just--
    Secretary Duncan.--it is not moving away from Perkins, to 
try to make sure that those dollars are really needed--
    Mr. Thompson. We are moving away from--
    Secretary Duncan.--to great programs.
    Mr. Thompson.--away from formula money. So it has some 
occurrences. Just real quickly, following from Dr. Roe, do we 
know what the graduation rate is for all Pell Grant recipients?
    Secretary Duncan. Sorry, I couldn't hear you.
    Mr. Thompson. Do we know the graduation rate of individuals 
who utilize the Pell Grant program?
    Secretary Duncan. I don't know that and actually have 
struggled to get that data.
    Mr. Thompson. Okay.
    Thank you, Mr. Chairman.
    Chairman Kline. Gentleman yields back.
    Mr. Pocan?
    Mr. Pocan. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for your commitment and the 
President's commitment, not just in good words but in, actually 
resources in the budget to hopefully have good deeds when it 
comes to education. I am trying to hit three different areas if 
I can.
    I have about 75,000 higher education students in my 
district, a very large number. One of the issues that has come 
up is student debt, and not necessarily from the perspective 
Representative Petri brought up but the fact that we are at 
$1.2 trillion, second only to home mortgages. A decade ago, we 
were less than a quarter of that.
    Now, one of the things that doesn't get attention is the 
ability to refinance student loans. You know, we can refinance 
our homes, our cars. Definitely, that will reduce the cost of 
their debt and free up income for purchases and cause ripple 
effects throughout the economy.
    Rutgers has put out a study showing 40 percent of the 
graduates with college loans delayed in making major purchases 
such as cars because of college debt, 25 percent put off 
continuing their education or moved in with their parents. So I 
have been working on a bill with Representative Bishop to 
introduce the House companion to Senator Gillibrand's bill to 
allow you to refinance at a lower rate.
    I was just wondering if the department has looked into any 
research regarding that and the ability to put more money into 
the economy and what your thoughts are on that.
    Secretary Duncan. Again, just really appreciate your 
leadership. You know, my mantra is that should be an issue in a 
bipartisan way we should be working on together when you have 
that much debt out there. Young people trying to buy a home, 
buy a car, start a family, start a business--it is a huge 
impediment.
    It is a huge challenge. And so thinking this through 
together, thinking through in a bipartisan way, I know Senator 
Durbin is also interested in this stuff. We have staff who are 
experts in this, happy to sit down anytime, sort of walk 
through what makes sense and what doesn't.
    But the status quo needs to be challenged. And we need to 
do that together.
    Mr. Pocan. And you are open to a conversation about 
refinancing of debt?
    Secretary Duncan. More than open to any conversations that 
increase access to college and increase affordability.
    Mr. Pocan. Great. If I can shift to K to 12, I am from 
Wisconsin and I served 14 years in our legislature. In 2013, 
Governor Walker proposed increasing taxpayer funding to private 
and religious voucher schools by 9 percent and increased many 
times larger in percentage terms than he did to our public 
school system.
    And in the past, I know some people on the other side of 
the aisle supported that here in the District of Columbia. We 
recently had a study, the NEKC Foundation report that 
determined that children of color face enormous barriers to 
educational achievement in Wisconsin.
    We ranked dead last in disparity between white children and 
their non-white peers, and encouraging policies which only help 
a very few children at the expense of others will only 
exacerbate the achievement rates for at-risk students, many of 
whom are minorities. I was just wondering, if the department 
has looked at all into research about how vouchers could 
further cause divides between the achievement gap with students 
of color?
    Secretary Duncan. Yes, well, your state is not too 
dissimilar to where Minnesota was with sort of relatively high-
performing in aggregate, but the-- disaggregate the data, 
devastating inequities there. And so I just appreciate your the 
candid conversation, how do we improve access for all?
    So I fundamentally think our role in government should be 
to prepare, to create great schools for the vast majority of 
students, the 90 percent who always have and always will attend 
public schools. And if the private sector wants to do some 
scholarships, do whatever, they absolutely have the right to do 
that.
    But we need to--what worries me on the vouchers, I think, 
so often we, you know, think we are saving three kids and then 
leave 500 to drown. And I can't sleep well at night knowing 
that.
    If you look at the data from Milwaukee just had a voucher 
program for a while, that data is mixed at best. That might be 
being generous. So anyway, so I think our collective focus 
should be in making every single public school in this country 
a great public school so that we serve the overwhelming 
majority of children in this country better than we are today.
    Mr. Pocan. And I just want to add, we just had listening 
sessions just last week in my district. And this issue 
specifically came up. I visited a number of schools in 
Milwaukee.
    They are not in my district but it was in the legislature. 
South Division High School has a 50 percent high school 
graduation rate and a big problem is when these kids come in 
from taxpayer-funded voucher schools, they don't have records.
    They don't have anything. We are really at a loss. And you 
know, I think it is my third area. But I will just put it in 
writing.
    Mr. Chairman, I will yield back.
    Chairman Kline. Thank the gentleman.
    Mr. Messer?
    Mr. Messer. Thank you.
    It is great to have you here, Mr. Secretary. We agree on 
many topics, disagree on some. But I admire your work, admire 
your courage. Just to--I didn't intend to talk about this, but 
just given the last comments, I think we all want to just be 
very clear.
    We want to make sure that every kid in America has a great 
opportunity. We can't let any kids drown. And while we are 
working to improve the challenges we do have within our public 
school system, we need to be mindful of who we are leaving 
behind along the way.
    I think you agree with me on that. And there are a set of 
options to do that. Frankly, to me, I believe vouchers ought to 
be one of them. But I think more than that, I think, let's 
leave it--I think we are all trying to make sure everybody has 
a chance to succeed.
    I want to congratulate you on the graduation rate 
improvement. As you may recall, I was an author of legislation 
in Indiana that worked on that issue.
    We are excited in Indiana to see our graduation rate go 
from the 70 percent range up to almost 90 percent, so exceeding 
a little bit the national performance now. I think we have 
talked about this before. Just would call to your attention for 
the record again, I think one of the most important reforms we 
put forward was changing our dropout age from 16 to 18.
    I am not sure that a federal mandate is the appropriate way 
to handle that but at least encouraging states to look at that 
as an option. But it is not a silver bullet, but particularly 
for kids that are trying to meet minimum expectations when 
those expectations include going to school until you are 18, we 
found in Indiana, it has made a big difference.
    Secretary Duncan. Now, I appreciate the leadership. And 
obviously, the nation only moves if states move and to see 
Indiana going absolutely in the right direction is a huge 
credit to you and others. The other thing you guys have done 
that I have been very interested in, that former Governor Mitch 
Daniels did, was we talked a lot about early college 
enrollment, if you know if young people graduate from high 
school in 3 years, he basically took that fourth year, that 
senior year of high school money and put that all to a college 
scholarship.
    I thought that was an unbelievably creative, innovative 
idea.
    Mr. Messer. Yes.
    Secretary Duncan. And where we could incentivize more 
students graduating early from high school and then go to 
college with I don't know what--you know, $8,000, $10,000, 
$12,000 in scholarship money, no additional cost to the 
taxpayer. That was some great thinking.
    So that kind of program we should be looking at in other 
places.
    Mr. Messer. Well, it is great for the state. It is great 
for the individual family. And as you know, many kids struggle 
in school because they are bored.
    Secretary Duncan. Right.
    Mr. Messer. Because they are not being challenged. They 
don't see what is relevant. And so it is out there to--
    Secretary Duncan. Do you have date how that is--I don't 
know how that has gone.
    Mr. Messer.--they are successful. We can share the date 
with you.
    Secretary Duncan. Okay, yes.
    Mr. Messer. So we will work on getting that to you. The one 
issue I wanted to raise with that bill was I think one of the 
most important national reforms we have brought forward was the 
way we calculate dropout rates. And as you know, you are well 
familiar with this.
    You know, we used to, as a country, only used to count you 
as a dropout if you showed up in your senior year.
    Secretary Duncan. Yes.
    Mr. Messer. When we got more accurate data, frankly, we had 
a national call to improve. I think at least in Indiana it has 
maybe been the most important reform of all. I think it has 
contributed to the national effort.
    But I think there is some information--I mean, there is a 
lesson in that for some of this dialogue we have had about Pell 
Grants and Perkins grants. I think it would serve us well in 
that policy area if we had the reporting of those graduation 
rates. Would you agree with that?
    Secretary Duncan. Yes, no, I absolutely and again, not 
hiding things, not masking things, talking about the truth. And 
sometimes, it is a brutal truth, quite frankly. It is so 
important.
    Children don't drop out in the 12th grade. Very few do. 
They just drop out in eighth and ninth, in tenth grade. So I am 
a big believer in not just in transparency and honestly, the 
back end, but we have more and more schools and districts 
looking at what I call freshmen on track rates. And all the 
data shows a freshman on track--they are much more likely to 
graduate.
    If freshmen aren't on track, it is pretty tough to catch 
up. So early indicators, not just backend stuff, but early 
warning systems, and then not just warning systems but 
interventions with those children, I think will help to drive 
this to a 90 percent national goal which is where we need to 
get to as quick as we can.
    Mr. Messer. And I think we have talked about this. But a 
quick plugin for my bill 1949, which is the Improving Post-
Secondary Education Data for Students Act--
    Secretary Duncan. Yes.
    Mr. Messer.--it is basically designed to task the 
Department of Education to help lead an effort to determine 
what are the things that should be reported and what shouldn't. 
I have only got a little bit of time left so I do want to raise 
an issue regarding the impact of the Affordable Care Act on 
schools.
    And we have talked about that before. Many school systems 
across the country and I won't list them given my time, are 
seeing this impact. The employer mandate has been delayed.
    But has the department looked at what the impact of the 
Affordable Care Act is on cash-strapped schools?
    Secretary Duncan. Yes, I don't know all the details there. 
If you could share those school systems with us, happy to reach 
out to superintendents, have our staff do that directly and 
figure out what we can do to be helpful.
    Mr. Messer. And you have done that with me before. I will 
send you the letter and we would ask for a timely response on 
that topic. Thank you.
    Secretary Duncan. We will work on the timely response.
    Mr. Messer. I yield back. Thanks.
    Chairman Kline. Gentleman yields back. We will all be 
looking for the timely response.
    Mr. Tierney?
    Mr. Tierney. Thank you very much.
    Thank you, Mr. Secretary, for joining us today. I want to 
just amplify comments made by Mr. Courtney with respect to what 
the Ryan budget would do to some of the higher education funds 
on that.
    I think, two points, most appalling are that on Pell 
Grants, it would eliminate some $90 billion of the mandatory 
funding that we have already paid for going forward and then 
when you talk about student loan repayment benefits, it would 
eliminate $9 billion again, which we have already paid for. So 
glad to see that the President's budget didn't take that tack 
and moved in a different direction.
    Also want to reiterate Mr. Pocan, Mr. Bishop's idea of 
trying to find some way to refinance high-interest loans at a 
lower interest and an extra point on that, students are out 
with private loans.
    Secretary Duncan. Yes, yes, yes.
    Mr. Tierney. It would be interesting, we wouldn't need 
legislation. But the administration might contemplate going to 
some of our Wall Street financial institutions that people see 
as having at least helped create some of the problems that we 
had in the late 2000s on that and convincing them that maybe a 
good idea is to form some sort of a pool into which people 
could refinance and put another $16 billion back into our 
economy.
    So I am at--but let me ask you about maintenance of effort. 
In the last Higher Education Opportunity Act, we have put in a 
provision that states would no longer be able to retreat and 
take federal money and use that instead. They have to maintain 
their effort and their commitment to it.
    What does your budget do with respect to continuing that? 
And what are the teeth involved in making sure that they do?
    Secretary Duncan. No, we are absolutely committed and 
continue to be. And it is interesting, I have talked to a 
number of college presidents in states that have seen 
significant cuts and have seen states cut right to the MOU 
point and not beyond.
    And so it has been a--it is not enough but it has been a 
critically important backstop to a number of college presidents 
that are trying to do the right thing. So again, push us if you 
have ideas on how to do it better.
    Happy to hear them. But we have tried to be clear and 
unequivocal. And as bad as things have been, frankly, would 
have been a heck of a lot worse had we not had those MOUs in 
place.
    Mr. Tierney. Well, King Alexander who is now the president 
at LSU was very instrumental in putting that--helping us get 
the ideas for that and showed--I think his research showed that 
it had been effective. I think what we need to help with some 
ideas and what are we going to do, the enforcement provision 
that we put in was weak. It got watered down in the conference 
committee on that.
    But we need to find a way to make schools know that we are 
serious about it, and states know we are serious about it on 
that.
    Secretary Duncan. He is an extraordinary college president. 
Again, we listen very closely when he speaks.
    Mr. Tierney. Yes, good guy. Let me ask you to expand a 
little bit on the upper ed program,--upper ed research 
program--
    Secretary Duncan. Yes, yes, yes.
    Mr. Tierney.--for technology on that because I think it is 
a good idea.
    Secretary Duncan. Yes.
    Mr. Tierney. It has worked in energy and it has worked in 
the defense area and maybe you can share with us the direction 
you are taking on that.
    Secretary Duncan. Yes, and I really appreciate the 
question. And it is just fascinating. I don't have all the 
details right here. But basically, what they have done in the 
defense side is they have done things in terms of training 
young people who didn't come from a great background on some 
very technical skills and in a short amount of time, a matter 
of, you know, 3, 4 months, 16 weeks of training have those 
young people outperforming folks who are much more 
traditionally trained and had been on the job for a long time.
    And if we are trying to challenge unemployment rates, if we 
are trying to help the young people be successful, can we try 
and take those kinds of innovations to scale using technology 
and give people real time, real skills? Ask them what they did. 
They said their goal was interesting, it was not to train to 
the middle, which is what many programs do.
    Their goal was to train to the best of the best. And that 
became the new standard, the new norm. And so if we could give 
more young people those kinds of opportunities and start to 
scale that kind of technical training using technology, I think 
it would be extraordinary.
    So we want to start to learn some of the lessons on the 
defense side and move them into the education arena.
    Mr. Tierney. Thank you. Lastly, just a general point on 
this. You have a long list of ideas, of things that we could do 
to improve school performance. And I think they ought to be 
providing strong leadership, ensuring teachers are effective, 
and able to prove, and so on down the line.
    I think that is one of the problems we have is scaling up 
those ideas that we find that do work. When we get into the 
charter school realm, I think one of the constant irritations 
of everybody, those that are supporters of the charter schools, 
those that are skeptical is we don't seem to be using it really 
as a tool--
    Mr. Tierney.--to find out things we could do better than 
scaling it up. What measures do you contemplate would move that 
ball forward?
    Secretary Duncan. Well, again, just so--I talk about all 
the time about the wrong fights in education, whether it is 
Republican or Democrat. The other one is, you know, charters 
versus traditional.
    And it just shouldn't matter. To be clear, it is not just 
the charters that have something to teach. Great traditional 
schools have something tremendous that charters could learn 
from.
    So just cutting through that noise, cutting through that 
conflict, trying to just think about when is right for kids, 
which is sharing the best practices, there are some places, and 
I can give you some information, but they are really starting 
to break through and think about this as a system of schools, 
not as warring parties and warring factions. And it has got to 
go in both directions.
    And we want to do everything we can to facilitate that and 
move forward.
    Mr. Tierney. I think that is a plan. Well, glad to hear you 
say you want to facilitate that. But I don't see it happening 
and that sort of allows us to keep squandering around in that 
argument about one or the other.
    Secretary Duncan. It is just when adults fight, kids lose. 
It is as simple as that.
    Mr. Tierney. All right, thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Kline. The gentleman's time has expired.
    Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you very much, Mr. Secretary. Great to see you. 
And appreciate your patience through the hearing this morning 
and really, your commitment, I think, to making sure that this 
robust education system that we must have for this country is 
for the 21st century.
    It is for the new work environment that young people are 
finding themselves in and that is our whole focus. And I think 
that is why we are concerned that the Ryan budget, because it 
doesn't seem to respect the need to invest in this country and 
to grow the economy in that way, really cuts off the 
opportunities, the very opportunities that businesses are 
asking us, that they want education to do, to be able to bring 
these young people into the system.
    And so, you know, one of the concerns that has been 
expressed is Perkins. I think you identified that you want to 
be focusing on new areas, certainly in terms of the Center for 
International Business Education and Research, that is one 
area, what we call cyber--a different way of--
    Secretary Duncan. Yes.
    Mrs. Davis.--saying cyber, that the Ryan budget is cutting 
that particular budget in Title VI by about 43 percent. So, I 
mean, what businesses are telling us is exactly the kind of 
investment that programs like this do.
    This may not be the only one, but it does that. What within 
the area that we are talking about right now, how do you see 
that we are really going to strengthen and grow those kind of 
programs? Because they are focusing on foreign language, their 
focus on the ability of young people to work in an 
international setting that is so critical today.
    Secretary Duncan. So not just the--across the board. Again, 
we have to think about this cradle to career. Do we want more 
children to have access to high-quality early learning or less?
    Do we want more children to have access to rigorous high 
school coursework that prepares them for college or less? Do we 
want more young people to have access to college and to be able 
to afford? Or do you want to see college going rates decrease, 
diminish?
    And again, I think we have to, as a country, commit to 
having the best educated workforce in the world. So we have to 
stop cutting off our nose to spite our face and think about 
this cradle to career, and to be clear and get them such a 
champion here, no one is proposing just investing the status 
quo, investing in business as usual.
    We are always pushing innovation. We are always pushing 
challenging the status quo, going to the next level. It has to 
be about high quality. And so at every level, whether you are 
talking specifically or whether it is Pell Grants or whether it 
is access to pre-k, what are we trying to do here and how are 
we going to get there and how are we going to strengthen 
families and ultimately strengthen our country's economy?
    Mrs. Davis. Well, I think that having--you know, really 
looking at the total package and that is what I think you are 
trying to do and what we would like to do and I think, 
unfortunately, we haven't necessarily seen that because when we 
have some cuts in major areas, which deal primarily with 
investment, that is not going to happen.
    I wanted to just quickly go back to the sort of social and 
emotional learning, that the discussion earlier hit on. And 
there has been certainly considerable research that kind of 
opportunity for young people to interact in a safe environment, 
which is the big priority that I know that you have, that the 
President has, what are we doing in that area as well to 
promote that idea?
    Because it is not to say that kids just need what sometimes 
are considered soft skills. I mean, these are the critical 
skills. And they bring success for all of our children in 
school. How can we talk about that in a way that really makes 
sense to everybody and certainly to the country as a whole?
    Secretary Duncan. So I really appreciate the question. We 
are actually looking to put some new resources, $10 to 15 
million behind an effort to really understand this in a 
profound way. And I hate soft skills. I hate--We need new 
names.
    Help me get a new name; not cognitive, executive 
functioning, those names sort of ring, but grit, resilience, 
tenacity, perseverance--it is fascinating. We look at Dr. 
Heckman's longitudinal work on the benefits of high-quality 
early childhood learning, obviously, some of those benefits are 
academic.
    He would argue or has told me that half to more than half 
of the benefit he thinks are to learning those skills that some 
children are lucky enough to learn in, you know, in church or 
around the dining room table. But too many of our kids don't 
have those opportunities.
    So how we start to think of these as important as reading 
and math and social studies and science and if our children 
have all the academic skills but no ability to persevere 
through adversity, to work through tough situations, we are not 
helping them.
    So it is an area--
    Mrs. Davis. Yes.
    Secretary Duncan.--where I am personally fascinated, spent 
a lot of time trying to work on this in a, you know, a previous 
life. John Easton who runs our Institute of Education 
Sciences--he has a thing about devoting the rest of this life 
to this work, wants to put some money behind it.
    So we want to better understand it and better understand 
how to teach it in a systemic way throughout a child's--
    Mrs. Davis. And do you see this does not take away from a 
parent's responsibility and their desire to teach these skills 
also to their children?
    Secretary Duncan. This is all about strengthening families, 
and again, where you have high-quality programs, you are doing 
it for children in conjunction with their parents.
    Mrs. Davis. Right. Thank you, Mr. Secretary.
    Chairman Kline. Gentlelady's time has expired.
    I am going to recognize Mr. Scott for 5 minutes for his 
question. And then I will recognize him for a few further 
minutes for closing comments.
    Mr. Secretary, we are getting close.
    Mr. Scott, you are recognized for 5 minutes.
    Mr. Scott. Thank you.
    And thank you, Mr. Secretary, for your perseverance. Could 
you just say a brief word about what the Ryan budget would do 
to early childhood education and the future of our next 
generation?
    Secretary Duncan. So again--relative--we showed it 
earlier--relative to other nations, today, we are about 25th in 
providing access to early learning opportunities. And that is 
not a badge of honor.
    And we want to do everything we can to increase that, the 
average child coming from a poor, from a disadvantaged 
community starts kindergarten a year to 14 months behind. And 
we have a budget that has 15 percent cuts.
    That will mean not more children obviously, but less 
children having access. And when we send children to 
kindergarten underprepared, that is not that child's fault.
    But we often don't catch them up. And we think about long-
term dropout rates, incarceration rates, I wonder how many of 
those young people we could have saved by giving them access to 
high-quality early learning opportunities. I mean, clearly, it 
has to be a continuum, a seamless continuum from birth through 
age 5.
    Mr. Scott. Thank you. And a lot has been said about school 
discipline. And one suggestion is more school resource 
officers. A lot of people have suggested that their major 
contribution is actually promoting the school-to-prison 
pipeline because they end up arresting the children rather than 
protecting the children.
    What is the evidence that you have seen, say, about school 
resource officers?
    Secretary Duncan. So we think whether it is school resource 
officers or more counselors or more social workers or better-
trained school resource officers, that is the key. And we are 
doing everything we can to fight the school-to-prison pipeline.
    As you know, we have been explicit in putting out the data 
around that. I think some school resource officers do a 
fantastic job. And others are frankly part of the problem.
    And so making sure that when we are trying to create a safe 
environment and a safe climate and a safe culture, which we are 
all trying to do, that we are not--the first instinct is not to 
call 911 when there is a challenge.
    Mr. Scott. Do you have studies that followed this?
    Secretary Duncan. I will have to check on that and get back 
to you.
    Mr. Scott. Thank you. On student loans, how much money does 
the government make on student loans a year?
    Secretary Duncan. Well, I think there are all kinds of 
projections in what folks think we may or may not make. And if 
you look at the GAO study, the title of the study basically 
says it is impossible to predict this.
    Just to be clear, we have no interest in making money on 
student loans.
    Mr. Scott. Well, one estimate was about--to-around $10 
billion a year. Does that sound about right?
    Secretary Duncan. I don't know. There are lots of different 
estimates out there. Again, Congress controls those rates. 
Congress worked together to prevent rates from doubling. And if 
Congress is interested in taking this up, we would be happy to 
have that conversation.
    Mr. Scott. Do you know how much it would cost to get the 
interest rate down close to zero?
    Secretary Duncan. I don't know.
    Mr. Scott. Have you studied the effect of the summer Pell 
Grant that was eliminated, the elimination of the summer Pell 
Grant a couple of years ago?
    Secretary Duncan. I don't know the details there. 
Obviously, we worked really hard to see a $40 billion increase 
in Pell Grants, without going back to taxpayers for a nickel. 
And we have gone from about 6 million Pell recipients to almost 
9 million.
    It is about a 50 percent increase. That is one of the 
things that I am most proud of. We weren't able to keep the 
summer Pell, which was disappointing. But the big picture, the 
fact that we are serving almost three million more young 
people, as you know, many first-generation college goers feel 
very, very good about that.
    Mr. Scott. So no one has looked at the effect of the 
elimination of the summer Pell Grant? Because a lot of people 
were going to school right through--now, just kind of skip the 
summer and it kind of lengthens out the time they are out of 
work.
    Secretary Duncan. Yes, no, I am sure folks are doing some 
analysis there.
    Mr. Scott. One problem we had in our area a couple of years 
ago was on upward-bound competition where we had five--the area 
of the state had five upward-bound programs, all performing 
adequately. When the dust settled on the competition, none of 
them got refunded.
    And none of the children in the area had access to an 
upward-bound program. In these competitions, do you do anything 
to make sure that at least in each area, somebody gets funded 
so that the children in that area are served?
    Secretary Duncan. Yes, it--we try and make sure we have 
geographic diversity. Obviously, given the limited amount of 
funds, I wish we could ensure that across the nation, we were 
funding in every community. But the reality is, frankly, far, 
far from that.
    Mr. Scott. Well, thank you.
    Mr. Chairman, I--
    Chairman Kline. Okay, the gentleman yields back his 
questioning time. He is now recognized for his closing 
comments.
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    And I thank the Secretary for his perseverance and for his 
very enthusiastic support of our next generation. We need to 
make sure we have the appropriate investments in education.
    We are falling behind, as the Secretary has mentioned, in a 
lot of measures where we were leading, we are way back in the 
pack. Our competitive advantage in a global economy is a well-
educated workforce. And if we lose that, we are not going to be 
able to compete on wages.
    We are not going to be able to compete on anything else. 
That is our main focus of competition. And we have a lot of 
work to do to restore ourselves to number one in the world.
    Mr. Chairman, I would like to submit for the record a 
letter from the Committee for Education Funding, which points 
out a lot of problems with the Ryan budget, particularly 
pointing out that it is billions below even the post-sequester 
caps established by the Bipartisan Budget Act and cuts a lot of 
important programs.
    [The information follows:]
    [Additional Submissions by Mr. Scott follows:]
    
 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Kline. Without objection.
    Mr. Scott. Yield back.
    Chairman Kline. Gentleman yields back. The Chair will yield 
himself some time here for closing remarks. I want to thank the 
Secretary for being with us.
    Mr. Secretary, I think it is safe to say that we all--you 
and I and everybody on the panel shares a goal to see that our 
kids and not kids--I mean, in higher education now, the 
nontraditional student is the tradition. That is, older 
students.
    We want them all to learn and to prosper and have the 
chance to achieve their goals. We have some differences in how 
we go about doing that. We are comparing budgets here today, a 
lot of discussion about the Ryan budget and what it does and 
doesn't do and the President's budget.
    And frankly, Mr. Secretary, if you have a budget like you 
are defending part of, that never, ever balances, adds to the 
debt every year forever, well, you can fund some programs and 
some new programs. But the real world that you have been 
talking about says, probably we shouldn't do that forever.
    And forever, we should have a budget that eventually 
balances. And we need to set some priorities. On special ed, we 
had some back and forth about who--is it Republicans, is it 
Democrats. Who is funding special ed? And as I said in my 
comments, I am disappointed in both parties--in the 
administrations in both parties and the Congress in both 
parties.
    But I will say that when Republicans held the majority here 
from 1995 to 2007, we took special ed funding, which is 
supposed to be, as you know, 40 percent of the excess required, 
we took it from the single digits it had been at for a couple 
of decades, from 8 percent to 18 percent. It is now back down 
to 16 percent.
    And with your $100 million of competitive grants to special 
ed, that is in the words of one of my colleagues a few years 
ago, kind of budget dust, because to get it just to the 18 
percent, which was the high point, that it would take about 
$1.5 billion. And so, I reiterate my request, I am going to 
work on it here.
    I am going to talk to my colleagues. I am going to talk to 
appropriators. I am going to talk to everybody I can about 
increasing that funding, because no matter how popular a new 
program might be, or even an old program, I haven't talked to a 
superintendent, a principal, teachers, or parents who won't say 
that the most important thing that the federal government can 
do is to start to meet that commitment.
    So we are going to continue to work on that. A lot of 
discussion about pre-k, preschool education, you have got in 
your budget a pretty big program. As you know, the federal 
government already spends close to $13 billion a year on pre-k 
programs.
    And over $8 billion of that is on the Head Start. Seems to 
me we need to look at that program with gusto to make sure that 
it is doing what it is supposed to be doing. A lot of things--a 
lot of things going. I appreciate your comments about the 
charter school bill.
    We feel pretty good about that. I wish we hadn't had to 
pull it out of the ESEA reauthorization. But I just think there 
are too many kids who are being denied an opportunity to 
achieve success.
    And parents, I think the charter school bill is important--
is very, very bipartisan, and I hope that we can count on you 
to help us move that through. It will pass next week.
    It will pass on the floor of the House--huge, huge number. 
We would like the Senate to take it up and see if we can't 
address the needs of those kids and those families.
    So thank you very much for your patience. We went a little 
bit longer than I know you would like and that some of us would 
like. We appreciate you staying and hanging in here.
    Even though you tempted me with holding another hearing so 
you could have a hearing with Mr. Miller, that may not happen. 
So again, thank you very much for being here today.
    There being no further business before the committee, we 
are adjourned.
    [Questions submitted for the record and their responses 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Secretary Duncan's response to questions submitted for the 
record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 12:30 p.m., the committee was adjourned.]
</pre></body></html>
